<html>
<title> - THE PLIGHT OF NORTH KOREANS IN CHINA: A CURRENT ASSESSMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                 THE PLIGHT OF NORTH KOREANS IN CHINA: 
                          A CURRENT ASSESSMENT

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2004
93-682 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                     Senate

JIM LEACH, Iowa, Chairman                 CHUCK HAGEL, Nebraska, Co-Chairman                                  
DOUG BEREUTER, Nebraska                   CRAIG THOMAS, Wyoming                                  
DAVID DREIER, California                  SAM BROWNBACK, Kansas                                  
FRANK WOLF, Virginia                      PAT ROBERTS, Kansas                                  
JOE PITTS, Pennsylvania                   GORDON SMITH, Oregon                                  
SANDER LEVIN, Michigan                    MAX BAUCUS, Montana                                  
MARCY KAPTUR, Ohio                        CARL LEVIN, Michigan                                  
SHERROD BROWN, Ohio                       DIANNE FEINSTEIN, California                                  
DAVID WU, Oregon                          BYRON DORGAN, North Dakota                                           

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Charny, Joel R., vice president for policy, Refugees 
  International, Washington, DC..................................     2
Scholte, Suzanne, president, Defense Forum Foundation, and U.S. 
  partner of the Citizens Alliance for North Korean Human Rights, 
  Falls Church, VA...............................................     5
Kim, Sang Hun, activist on behalf of North Korean refugees.......     9

                                APPENDIX

                          Prepared Statements

Charny, Joel R...................................................    28
Scholte, Suzanne.................................................    32
Kim, Sang Hun....................................................    35

                       Submission for the Record

List of North Korean Refugees and Humanitarian Workers Seized by 
  the Chinese Authorities, submitted by Suzanne Scholte..........    43


       THE PLIGHT OF NORTH KOREANS IN CHINA: A CURRENT ASSESSMENT

                              ----------                              


                         MONDAY, APRIL 19, 2004

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2200, Rayburn House Office building, John Foarde (staff 
director) presiding.
    Also present: Karin Finkler, Office of Congressman Joe 
Pitts; Rana Siu, Office of Lorne Craner, Assistant Secretary of 
State for Democracy, Human Rights, and Labor; Christian Whiton, 
Office of Paula Dobriansky, Under Secretary of State for Global 
Affairs; Susan Roosevelt Weld, general counsel; Chris Billing, 
communications director; and Carl Minzner, senior counsel.
    Mr. Foarde. Good afternoon. On behalf of Chairman Jim Leach 
and Co-chairman Chuck Hagel of the Congressional-Executive 
Commission on China, and all 23 of our Commissioners, let me 
welcome you to this issues roundtable.
    We are pleased that so many of you managed to get the room 
change notice and come to the proper room, particularly our 
panelists. We are joined today by a number of personal staff to 
our Commissioners, which is a tribute to the importance of this 
issue.
    We come together this afternoon to talk about North Korean 
migrants in China. An estimated 300,000 North Korean migrants 
now live in northeast China on the Chinese side of the border 
between North Korea and China. By all accounts, their numbers 
are growing. Many have evidently fled the North Korean 
Government's political persecution and the severe food 
shortages there.
    But Chinese authorities have declined to grant these North 
Korea migrants the status that they deserve as refugees. The 
Chinese Government evidently fears that doing so would 
encourage a greater flood of migrants across the border. 
Beijing terms these migrants as economic migrants and does not 
permit them to seek the help of the U.N. High Commissioner for 
Refugees [UNHCR].
    Those that do get across the border face discrimination and 
exploitation, but their principal fear is that the Chinese 
Government will invoke a longstanding treaty provision with 
North Korea and repatriate them forcibly to the DPRK, where 
they would face near-certain punishment.
    Despite the distress of these migrants, the Chinese 
Government has not been willing to allow international aid 
groups into the border area to provide aid. There are several 
documented cases of South Korean aid workers and a South Korean 
photojournalist who was just released who have been detained by 
Chinese authorities for activities that can only be described 
fairly as helping these North Korean migrants in China.
    But the tide is turning, I think, and the pressure is 
ratcheting up. In Washington this spring, the U.S. Congress is 
now considering H.R. 4011, the North Korea Human Rights Act of 
2004, which seeks to promote human rights and freedom in North 
Korea.
    We wanted to spend a few minutes this afternoon examining 
the current situation of North Koreans in China and looking at 
the near-term prospects for any signs of positive change for 
the migrants.
    To help us with this discussion, we have three experienced 
and distinguished panelists. Joel Charny is vice president for 
policy at Refugees International. Refugees International has 
been one of the premier NGOs dealing with refugee and asylum 
matters worldwide for a number of years. Suzanne Scholte joins 
us. She is president of the Defense Forum Foundation and the 
U.S. partner of the Citizens Alliance for North Korea Human 
Rights. She will say more about her work, as I am sure Joel 
will about his. And we are particularly pleased to have with us 
from South Korea Mr. Kim Sang Hun, an activist on behalf of 
North Korea refugees, with much experience and a very 
interesting statement to share with us.
    As we have told our panelists, our procedure here is to let 
each panelist speak for 10 minutes to make an opening 
statement. After about 8 minutes, I will tell you you have 2 
minutes remaining.
    When each of the three have spoken, then we will open it up 
to questions and answers by the staff panel here. We will go as 
many rounds as we have time for before about 3:30, unless we 
run out of questions. And I have the sense that we probably 
will not, because the issues are interesting and profound.
    So, without further ado, let me recognize Joel Charny, vice 
president for policy at Refugees International. Joel, thank 
you.

    STATEMENT OF JOEL R. CHARNY, VICE PRESIDENT FOR POLICY, 
             REFUGEES INTERNATIONAL, WASHINGTON, DC

    Mr. Charny. I would first like to thank you and the staff 
of the Congressional-Executive Commission on China for the 
opportunity to present testimony on the situation for North 
Korean refugees.
    North Koreans in China are extremely vulnerable to 
arbitrary arrest and deportation back to North Korea, where 
they endure sentences ranging from several months in labor 
training centers, to long-term imprisonment, to execution, with 
the severest penalties reserved for those known to be Christian 
activists or known to have been in contact with South Koreans 
about the possibility of reaching the South.
    While the long-term solution lies in improving conditions 
inside North Korea, short-term solutions to protect North 
Korean refugees must involve changing their treatment by the 
Chinese. That is why I am really pleased that we can have this 
dialog, because over the long term, the problem is clearly the 
North, but in the short term, the crux of the problem is in 
China.
    I will be honest with you. Refugees International [RI] and 
other advocates have really struggled with how to move China on 
this issue. At this point, I do not see much movement. So if we 
can strategize together on how to raise this issue to the level 
that the Chinese actually have to do something, I would be very 
open to that discussion and dialog and thinking about 
strategies.
    I want to put this in the context of the Human Rights Act, 
or the North Korea Freedom Act in the Senate. As good as those 
provisions are, without change from China it is basically 
symbolic politics. We can say we will take 50,000 North Koreans 
into the United States, but until the Chinese allow us access 
to North Koreans in China, it is a moot point. It is a 
statement. It has no practical value. The idea of providing 
large-scale assistance to refugees in China is similar. Again, 
the Chinese would block those measures, so how do we move 
China?
    I will present a brief summary of my written testimony. I 
assume this is like a regular hearing, where the full written 
testimony will be entered into the record. My testimony is 
based on one week in Jilin Province in China in June 2003, 
interviewing 38 North Korean refugees ranging in age from 13 to 
51. That is a very limited experience, but it was a very 
powerful experience to talk to people, especially those who had 
crossed recently, and hear stories of the shattering experience 
that people had had inside, often having to abandon relatives 
or watch the death of relatives and then decide to leave.
    Then they cross into China, and what they see in China is 
staggering. They have been told their whole lives that North 
Korea is paradise, that China is kind of a deviant from 
communism. You, as a North Korean, live in the most perfect 
place on the planet. Obviously, they know that they do not, or 
they would not be leaving.
    But when they get to China and see, in the same ecological 
zone, in the same place, people eating rice three times a day, 
it is completely shattering. The first person we interviewed, 
when we asked him, ``What is your reaction to China''--he had 
crossed three days before--he started crying. He was crying 
because his whole life had been devoted to trying to survive in 
a place where survival is practically impossible. Then he 
crosses a river that is 50 yards wide and it is as if he is on 
another planet. That contrast between North Korea and China is 
shocking to people and one that all North Koreans have to deal 
with when they first cross.
    I want to stress that the primary motivation of North 
Korean refugees to cross the border is survival. You are not 
crossing so you can get a good job at a factory. So I would 
prefer to look at the flow of people across the border in terms 
of survival, not in terms of access to economic opportunity.
    Now, there is a bit of dispute on the numbers. I will say, 
we incline to the lower estimate based on our experience in 
China and discussion with other groups. I think the numbers are 
more like 60,000 to 100,000 in China at the moment, not 300,000 
that you see reported.
    The reason for that gets to another point I want to make, 
which is that the border is a lifeline. A lot of North Koreans 
cross--not to live in China or to go to South Korea or to come 
to the United States--they cross to make contact with groups 
that are assisting North Koreans in China and then they carry 
medicine and food back into North Korea to help themselves and 
to help their families. So a lot of the movement is back and 
forth across the border. I think that is part of the policy 
challenge, because anything that you try to do for North 
Koreans needs to keep in mind that that border is a lifeline, 
and if the border is shut down, that is problematic for the 
survival of North Koreans.
    Fifty percent of the refugees that I interviewed had been 
arrested and deported at least once. The treatment of the 
refugees upon being deported was consistent: Two months of 
captivity in a ``labor training center.'' If you read David 
Hawk's report issued by the U.S. Committee on Human Rights in 
North Korea, you will find there the Korean term for labor 
training center. In those training centers, they endure harsh 
labor and starvation rations. This treatment, coupled with the 
political manipulation of food rations and employment 
opportunities inside North Korea, constitutes the case for 
considering the North Koreans in China as deserving of refugee 
status.
    Trafficking of women is a serious problem, but based on my 
visit I am unable to give a precise estimate of its scope. 
Korean women often cross with the idea of marrying a Korean-
Chinese man as a survival strategy. Indeed, the two happiest 
people that we met during the course of our visit to China were 
two North Korean women who were in stable relationships with 
Korean-Chinese men. The problem is that they have no legal 
status in China. Their children have no citizenship. They could 
still be picked up in the market and sent back to North Korea, 
even though they are married to a Chinese man. They are also 
extremely vulnerable to being captured and sold to Chinese 
husbands rather than Korean-Chinese, or to bar and brothel 
owners well outside the border region. I think one thing that 
we all need to get a handle on is the extent of the trafficking 
problem.
    Now I will turn to strategies for protection and 
recommendations. I already said that the border with China is a 
lifeline, so we need to provide real protection while avoiding 
counterproductive provocations of the Chinese Government. How 
you do that is the challenge. China should stop arresting and 
deporting law-abiding North Korean refugees. We believe they 
could do that quietly, without making a big announcement, in a 
way that would not encourage the flood of people that they 
fear. China should clearly allow the office of the U.N. High 
Commissioner for Refugees access to the border region. China is 
not only a signatory of the Refugee Convention, it sits on the 
UNHCR Executive Committee. I wish the United States would do 
more within the framework of the HCR Executive Committee to 
challenge the Chinese on this issue. I think that is a possible 
forum in which to have a debate on this matter.
    The United States should engage with China on these issues 
and ensure that they are an important part of our ongoing human 
rights dialog with the Chinese Government. Resettlement is a 
possible protection strategy, but again, the Chinese would have 
to be convinced to make this a legal process. You have the 
added problem that the South Koreans are reluctant to take more 
North Korean refugees. The United States will have to engage 
with both South Korea and China if meaningful numbers of North 
Koreans are to be resettled. Now, RI has struggled with the 
issue of who exactly can be an effective interlocutor with the 
Chinese on the changes they need to make to protect North 
Koreans in China.
    I think anyone who has worked on human rights in China 
knows that confrontational tactics tend to backfire, and 
indeed, arrests and deportations along the border clearly spike 
in response to embarrassing public incidents such as embassy 
take-overs.
    On the other hand, quiet diplomacy has utterly failed. I do 
not see much evidence that the Bush administration is applying 
any meaningful pressure, quiet or otherwise, on this issue. RI 
urges Members of Congress, especially from the Republican side 
of the aisle, to try to identify senior retired officials who 
have credibility with the Chinese to commit to taking up this 
issue with their Chinese friends. I am thinking of people with 
the stature as high as former President Bush himself, former 
Secretary of State Henry Kissinger, of retired Ambassadors. 
Someone whom the Chinese respect needs to be taking up this 
issue. If the Chinese authorities hear consistent messages of 
concern about the plight of North Koreans in China from people 
whom they trust, perhaps the government will be moved to adopt 
at least the minimalist protection strategy of quietly halting 
arrests and deportations.
    Thank you.
    [The prepared statement of Mr. Charny appears in the 
appendix.]
    Mr. Foarde. Thank you, Joel, both for a profound and 
provocative presentation, but also for your discipline for 
keeping within the time. We will be able to pick up, I am sure, 
some of the topics that you did not get to raise during the 
question and answer session.
    Let me go on and recognize Suzanne Scholte, please.
    Suzanne.

    STATEMENT OF SUZANNE SCHOLTE, PRESIDENT, DEFENSE FORUM 
FOUNDATION, AND U.S. PARTNER OF THE CITIZENS ALLIANCE FOR NORTH 
             KOREAN HUMAN RIGHTS, FALLS CHURCH, VA

    Ms. Scholte. Just by quick way of introduction, most of my 
testimony is based on is my experience in working with North 
Korean defectors since 1996. Thank you to Chris Billing and the 
Congressional-Executive Commission on China for arranging this 
panel discussion. I am honored to participate with these 
distinguished guests, Sang Hun Kim and Joel Charny, to discuss 
the plight of North Korean refugees in China.
    One of the most avoidable and despicable tragedies of our 
time is occurring today in China as hundreds of thousands of 
starving North Korean men, women, and children have fled their 
homeland and crossed the border into China to try to survive. 
The famine which began in the mid-1990s has led to the deaths 
of over three million North Koreans.
    The estimate of the number of North Korean refugees in 
China ranges between 50,000 to 350,000. Part of the problem in 
getting a more precise number, is that the People's Republic of 
China will not allow access to the region, and even denies 
access to the U.N. High Commissioner for Refugees, in clear 
violation of the international treaties China has signed. 
Hence, information about the situation must come from those who 
risk being jailed by China to help these refugees, mostly 
people of deep religious conviction, including Christian and 
Buddhist organizations.
    The policy of the PRC is inhumane and should be condemned 
by all nations. In essence, we have a situation where a 
government is terrorizing starving, helpless refugees, but also 
terrorizing humanitarian workers who are simply in China to 
feed and shelter these refugees.
    Please understand, I fully acknowledge China's right to 
protect its borders and its concern about the flood of 
refugees. But you have a wealth of humanitarian organizations 
that wish to alleviate this problem. In fact, two years ago, we 
got letters of commitment from 12 humanitarian organizations 
that wished to help establish a refugee camp to help relieve 
China of any burden for these refugees. There are many 
organizations such as Action Against Hunger and Doctors Without 
Borders that have left North Korea in protest of the 
government's diversion of their humanitarian aid that would be 
more than willing to assist North Koreans wherever they are.
    There have been instances where the Chinese authorities did 
allow North Koreans to leave. Two families we were working 
with, the Han Mee family in 2002, and a more recent family, the 
Zheng family in March 2004, were allowed safe passage to South 
Korea via a third country. However, these are the very rare 
exceptions. Every week, between 100 and 200 North Koreans are 
repatriated. Now China defends the repatriations by claiming 
that the refugees are economic migrants. Yet, as soon as a 
North Korean crosses the border he or she immediately fit the 
definition of a political asylum seeker, because it is a crime 
against the State for a North Korean to leave the country.
    I would like to submit a paper written by Tarik Radwan, an 
attorney with Jubilee Campaign, which outlines the violations 
China is committing against North Korean refugees. We know from 
eyewitness testimony that when North Koreans are repatriated, 
they are subjected to harsh sentences. In some cases, they are 
executed, especially if they have converted to Christianity. 
Since many Christians are willing to risk themselves to help 
these refugees, it is very common to hear of North Korean 
defectors converting to Christianity. Some, in fact, go back to 
North Korean to preach the gospel, which, as you well know, is 
another crime against the State in North Korea because Kim 
Jong-il considers Christianity to be the biggest threat to his 
absolute rule.
    We know that pregnant women who are repatriated are forced 
to undergo abortions. If the babies are born alive, they are 
suffocated, murdered on the spot. The crime that the baby 
committed is two-fold: he may have been the child of a Chinese 
man, and he shares his mother's guilt for the crime she 
committed of leaving the country.
    In addition to repatriating North Koreans, China penalizes 
its citizens for trying to help North Korean refugees and 
rewards them for turning them in, a double incentive. It also 
works aggressively with North Korean agents to catch and jail 
humanitarian workers. In fact, the North Korean Government 
offered an incentive to catch Hiroshi Kato of Life Funds for 
North Korean Refugees: 440,000 yen and a brand-new Mercedes 
Benz. Kato was in fact caught in November 2002, and jailed, but 
fortunately the Japanese Government stood up for him and he was 
released after less than a week in 
detention. However, today there are at least 10 humanitarian 
workers in Chinese jails, 10 that we know of. Since they must 
work clandestinely to try to save people's lives, there may be 
many others.
    Just to give you an example of these ``lawbreakers'' that 
China has in jail, let me just describe two of them: Reverend 
Dong Shik Kim, who disappeared on January 16, 2000, and 
Takayuki Noguchi, who was seized on December 10, 2003.
    Reverend Kim is a devout Christian who felt a special 
compassion for the handicapped, poor, and oppressed because he 
had himself been handicapped after a car accident in 1986. 
Working in China since 1988, he became well aware of the 
suffering of the North Korean people and organized five 
shipments of humanitarian aid to North Korea. He and his wife 
helped North Korean athletes go to compete in the 1996 
Olympics. He was helping shelter refugees in China when, on 
January 16, 2000, he was visited by three men who told him they 
wanted him to see a North Korean refugee couple who needed 
help. He served the three men lunch, and then the three men 
took Reverend Kim away and he has not been seen since.
    Noguchi, of Life Funds for North Korean Refugees, was 
seized on December 10 with two Japanese-born refugees. Noguchi 
is a 32-year-old humanitarian worker whose devotion to helping 
others led him to become involved in trying to rescue North 
Korean refugees. At the time he was caught, he was trying to 
help two Japanese-born refugees return to Japan. Noguchi is in 
jail today, being held by Chinese authorities, for the crime of 
illegally transporting people across the border.
    Regarding the repatriations, we know of incidents where 
North Korean defectors have been murdered by Chinese border 
guards and North Korean agents. On May 28, 2002, North Korean 
agents beat to death Sohn In Kuk, a 40-year-old refugee who had 
fled North Korean after his entire family had starved. His 
crime was crossing the border too many times. Last week, 
according to Durihana Missionary Foundation, a Chinese border 
guard shot a North Korean defector who was with a group of at 
least 17 who were trying to make it to Mongolia. This is the 
policy of China, which regards itself as a world leader, yet is 
committing one of the most despicable crimes against humanity 
in the world today.
    Over the years, field surveys conducted by human rights 
organizations document that over 50 percent of North Korean 
women have been subjected to human trafficking, sold as wives 
to Chinese farmers, sold as sex slaves to brothels, and 
sexually exploited. These statistics are now believed to be 
much higher, because now it is not just Chinese that are 
selling North Korean women and young girls, but even desperate 
North Koreans are selling their own citizens.
    Tim Peters of Helping Hands Korea believes that at least 70 
percent, and possibly 90 percent, of North Korean refugee 
females have been victimized by trafficking. He described one 
such victim, Kim Mi-Soon. Kim's parents died and she was left 
to fend for herself, until a woman from a nearby town offered 
to take Kim to China to live with her relatives. She went 
gratefully. It was not until she reached China that she 
discovered the deception. The woman sold her to a Chinese man. 
She was sexually abused, beaten, and treated like a piece of 
property. Despite the abuse, Kim considers herself very 
fortunate, because she will tell you, ``I was only sold once. 
Most of the teenaged girls from my home town, 15- and 16-year-
olds, have been sold three and four times as sex slaves.'' Many 
of these young women are terrified to come forward to tell 
their stories because of the stigma that they have to live with 
for the abuse they endured.
    Hae Nam Ji is another example. She decided to flee North 
Korea after she served time in a political prison camp for the 
crime of singing a South Korean song. She describes the several 
times she was sold. In one case, the man who bought her was 
afraid she would try to escape while he was at work, so he took 
her to the factory, where she was treated like an animal in a 
zoo, stared at and sexually molested by the man's co-workers.
    Despite these horror stories, North Koreans keep fleeing to 
China. Time and time again, we hear the same story from them: 
``We would rather die than go back to North Korea.'' Recently, 
over 100 North Korean defectors went on a hunger strike at the 
Tumen facility in China to protest their pending repatriation. 
Tumen is considered the last stop for North Koreans about to be 
repatriated.
    Having worked on this issue for some time, and despite 
these horror stories, I am becoming encouraged by developments 
as more and more people and organizations raise their voices on 
this issue. As you know, the U.N. Commission on Human Rights 
passed a resolution last week regarding the horrible human 
rights situation in North Korea, and called for the appointment 
of a Special Rapporteur. Furthermore, Senators Sam Brownback 
and Evan Bayh, and Congressmen Jim Leach and Eni Faleomavaega 
have introduced the North Korea Freedom and the North Korea 
Human Rights Acts in the U.S. Congress. Next week, the North 
Korea Freedom Coalition will host North Korea Freedom Day, 
which includes a major rally on Capitol Hill and a day-long 
series of events to promote North Korean human rights and 
freedom.
    In conclusion, I feel we must apply worldwide pressure on 
China to stop the repatriations of North Korean refugees and 
allow the UNHCR and humanitarian organizations access to these 
refugees, and the ability to set up refugee camps. We should 
also pressure the Olympic Committee to change the venue for the 
2008 Olympics unless China stops its inhumane policy. It would 
be an enormously tragic farce to have the Olympic Games, which 
celebrate goodwill among neighbors, to be held in a country 
which is murdering and terrorizing its neighbors for the crime 
of coming to them for help. Our country should also use its 
economic leverage with China to stop these atrocities. We know 
that we cannot appeal to China on moral grounds, but they do 
seem to respond to economic pressure. If our governments are 
not willing to help, then as individuals we should consider our 
own economic boycott of Chinese products.
    I conclude with a plea to: ``Rescue those being led away to 
death; hold back those staggering toward slaughter. If you say, 
we knew nothing about this, does not he who weighs the heart 
perceive it? Does not he who guards your life know it? Will he 
not repay each person according to what he has done? ''
    Thank you.
    [The prepared statement of Ms. Scholte appears in the 
appendix.]
    Mr. Foarde. Suzanne, thank you very much for another 
profound presentation.
    I would like to move on, please, to Mr. Kim Sang Hun. 
Please go ahead.

 STATEMENT OF KIM SANG HUN, ACTIVIST ON BEHALF OF NORTH KOREAN 
                            REFUGEES

    Mr. Kim. Thank you very much, Mr. Foarde, ladies and 
gentlemen. I wish to take this opportunity to express my deep 
appreciation and respect to the great American people, who are 
the hope and leaders for the world today for democracy and 
human dignity.
    I am now in a rather comfortable situation because much of 
the text I have prepared for this occasion was picked up by 
other speakers and your opening statement. So, I can reduce my 
speech considerably.
    The problems we are discussing today have been well-defined 
and expressed. Now, what I would like to draw your attention to 
is that the problems we describe here are not a simple case of 
a difference of opinion or interpretation. To me, this is 
clearly a case of Chinese arrogance and open defiance of the 
international community. How long are we going to tolerate 
China's arrogance and defiance? I am concerned that to continue 
to turn a blind eye to the Chinese Government's open contempt 
for humanitarianism today can only serve to incubate the 
aspiring Hitlers, Stalins, and Kim Jong-ils of tomorrow.
    With your permission, I wish also to draw your attention to 
a separate humanitarian disaster, again, related to North 
Korean refugees, and equally great as those which other 
speakers have made reference to. On December 12, 2001, at the 
ministerial meeting in Geneva of states party to the 1951 
Geneva Refugee Convention, Mr. Wang Guangya, then Vice Foreign 
Minister of the People's 
Republic of China, heralded the Geneva Convention and declared 
that the Convention ``serves as a guide to action to people who 
are engaged in humanitarian work of protecting and assisting 
refugees. . .'' In reality, however, as others have indicated, 
the Chinese authorities have been arresting and indefinitely 
detaining humanitarian aid workers for simply ``protecting'' 
and ``assisting'' refugees. It goes without saying that this is 
typical Chinese hypocrisy.
    Reverend Choi Bong-il, Assistant Reverend Kim Hee-tae, 
South Korean missionary Choi Yong-hun, Mr. O Yong-pi, and 
Japanese aid worker Noguchi Takayoshi. Today, there are at 
least five humanitarian aid workers, including one Japanese, 
held in Chinese prisons for assisting North Korean refugees. I 
can only speculate, as a South Korea citizen, as to why my 
countrymen's government has sold out their compatriots. Blame 
ignorance, political agendas, or a general desire to avoid all 
matters North Korean; whatever the reason, it is no excuse. In 
the meantime, our friends and colleagues remain languishing 
behind bars.
    Today, I am making a very special appeal to the American 
people for help, the only hope for us now. For me, this happens 
to be a very personal matter, for my friend and colleague Kim 
Hee-tae has been arbitrarily locked up in a Chinese prison for 
almost two years. Imagine, if you will, a young man, an 
idealist, whose only crime is his sense of responsibility to 
help other people in need. Kim Hee-tae is such a person. It is 
only in China where assisting refugees constitutes a crime.
    Reverend Choi Bong-il has been detained in a Chinese prison 
for over two years now, Kim Hee-tae, almost two years, without 
a court verdict. The Chinese Government has proven itself deaf 
to appeals for humanitarian consideration or pleas for mercy. 
Perhaps we have made mistakes in the past in dealing with the 
Chinese Government. This is one observation I would like to 
make today, and would like to share with you.
    First, we seem to have failed to understand the mechanism 
of the Chinese bureaucracy. The Chinese bureaucrats are there 
to carry out the instructions from above, not to initiate 
anything, not to make any proposals or anything like that. 
Therefore, often it may happen that the appeals from abroad on 
behalf of North Korean refugees or humanitarian aid workers may 
have been left on the table, unattended by the decisionmakers. 
When it reaches your attention in weeks, perhaps even months, 
the result by that time has proved that no response was the 
best policy because appeals were made to the Chinese 
Government, but little follow-up took place. So by the time the 
appeals reach the attention of the decisionmaker, it appears 
that the case has been forgotten by almost everybody. This 
could have given the Chinese authorities the wrong message, 
that the international community is not serious with their 
appeals. They may think that the appeals from the international 
community were more or less lip service, so nobody takes it 
seriously.
    Second, the Chinese traditionally follow the pattern of 
being submissive to the stronger, but showing no mercy to the 
weaker. This is where I may contradict one of the earlier 
speakers. For example, North Korean defectors who gain entrance 
to foreign embassies in Beijing are permitted to leave China. 
Foreigners are strong. The same North Korean refugees, if they 
are caught on the streets, are arrested and treated like 
cattle. North Korean refugees themselves are weak. The lesson 
to be learned here is that China responds only to a strong show 
of force.
    What should we do about it? I wish to urge that appeals for 

humanitarian considerations or quiet diplomacy be discontinued 
in favor of open protest in the strongest possible terms, with 
determination and persistence in dealing with the Chinese. 
Before closing, I would like to make my observation on UNHCR, 
which has been mandated to protect refugees. They should be 
leading the charge on behalf of these refugees. In reality, it 
appears instead that they kowtow to the Chinese Government and 
not make waves. I wish to take this opportunity to ask UNHCR 
why it has failed to carry out the mandate and protect the 
refugees from being forcibly repatriated by the Chinese, when 
it could, by initiating the binding arbitration clause in the 
agreement between the UNHCR and the Chinese Government.
    In closing, I am baffled as to why China chooses to be on 
the wrong side of history by supporting such a regime, a North 
Korean version of the Shanghai Gang of Four that wreaked havoc 
during the Cultural Revolution in China. I simply cannot 
understand why China is making itself an accomplice to North 
Korean crimes against humanity, especially when China must know 
that these crimes will soon be exposed for the world to see. 
And just for your information, before coming here, I have come 
up with a drawing to show the Chinese that they are acting as 
an accomplice to North Korean crimes against humanity.
    Thank you.
    [The prepared statement of Mr. Kim appears in the 
appendix.]
    Mr. Foarde. Mr. Kim, thank you very much for your 
presentation. Thanks to all three panelists for your passionate 
and articulate presentations this afternoon.
    We will go on now to the question and answer session. I 
will recognize individual staff colleagues. Each will have five 
minutes to ask a question and hear the answer.
    I am going to begin the questioning myself this afternoon, 
and on behalf of my Senate counterpart, Dave Dorman, who works 
for Senator Chuck Hagel. Dave is traveling in China. In fact, 
today he is in Lhasa, along with our colleague Steve Marshall. 
So, he is a little bit far away to ask questions, but he did 
want me to ask a few things on his behalf.
    I think I will start with Joel Charny, picking up on your 
trip to Jilin a couple of years back now. I am interested in 
how you went. Did you just go as a tourist and get up into 
Jilin and go around, or were you sponsored by the Chinese 
Government?
    Mr. Charny. I am not going to get into the operational 
details, for obvious reasons.
    Mr. Foarde. All right.
    Mr. Charny. But I went as a tourist.
    Mr. Foarde. So you did not have official sponsorship or 
anything else.
    Mr. Charny. No. If we had tried to get official sponsorship 
we would not have been able to go, or after waiting for six 
months if we had been able to go, it would not have been a very 
substantive visit.
    Mr. Foarde. So just to clarify that, you were completely 
unhindered by any official----
    Mr. Charny. Completely. The visit was in June 2003, and we 
were completely unhindered as we did the interviewing.
    Mr. Foarde. So presumably you got straight answers.
    Mr. Charny. Oh, absolutely. I think I already cautioned you 
that we only spoke to 38 people. The other caution is that, 
especially for the people who crossed recently who were not 
really acclimated to China, their mind-set would be a 
hindrance. They are told by people that they trust that there 
are a couple of foreigners who want to speak to them, and then 
they are confronted with two Americans who are asking them 
probing questions about their experiences, both in North Korea 
and in China.
    I mean, there is some limitation. I am not saying people 
maybe could not be completely forthcoming. Certainly for all 
the awful things they have been told about Americans, there 
might have been a tendency to be cautious or not to trust us. 
But if you accept those limitations, the discussions themselves 
were completely unfettered.
    Mr. Foarde. Really useful. This is something that any of 
the panelists could answer. There, of course, are a great 
number of ethnic Koreans in northeast China separate from 
whatever the numbers are of North Korean refugees that have 
come over. Are they organized as an ethnic group? Do they have 
clan associations or social organizations, or organizations 
that have been, or could pick up some of the work of relief for 
the refugees?
    Mr. Kim. Other than those Christian groups, underground 
Christian groups, I do not think that they are organized. The 
whole area is a Korean autonomous area, so they have the Civil 
Affairs Department for organization. Other than that, no. As 
far as I know, they are not in any group.
    Mr. Foarde. Please, Suzanne, go ahead.
    Ms. Scholte. I was just going to add that one of the things 
that is going on now by the Chinese is that a lot of the 
officials in those border regions are ethnic Korean-Chinese, 
and they are trying to replace those officials with Han Chinese 
because, obviously, the Korean-Chinese are more sympathetic.
    Mr. Charny. I was just going to make the point that there 
is definitely inter-ethnic solidarity, there is no question 
about it. The orders to arrest come from the center. There is 
not a big motivation for local officials to arrest people. The 
order comes from the center. And, as Suzanne already testified, 
they are offered incentives. I mean, you are offered a reward. 
When these orders come down, local officials are offered a 
reward. If you capture X many numbers of North Koreans and 
deport them, you get Y amount of money for each individual that 
you are able to arrest.
    Mr. Foarde. I think I have time for one more question here 
on my list. Are North Korean refugees going elsewhere, to 
Japan, for example, or is just to China? There was an attempt 
to Mongolia that one of you discussed in your testimony.
    Mr. Charny. Well, there is this amazing underground 
railroad that has been set up to try and get North Koreans into 
Southeast Asia, where they can present themselves at a South 
Korean Embassy or consulate.
    And, as you probably know, North Koreans are considered 
automatic South Korean citizens if they seek entry to the 
South. So if you make it to an embassy in Bangkok, or in 
Rangoon, or in Hanoi, you are going to be taken as a citizen by 
the South Koreans. Now, the numbers at present are small 
because of the logistical difficulties involved in the journey, 
but increasing numbers are making that incredible trip.
    Mr. Kim. More or less similar situations with Mongolia, 
except during the wintertime we cannot cross people over there. 
They have just begun, as you have already been informed, so 
there will be some opportunities there. But as Joel Charny 
mentioned, many southeast Asian countries, we do find them 
coming along.
    Mr. Foarde. Suzanne? Please.
    Ms. Scholte. I was going to add, real quickly. There was a 
high-profile case of the seven that got to Russia. They were 
actually granted refugee status, but they were still sent back. 
We do not know where they are. We also know there is a 
population in Vietnam. There is a group in Europe that is 
finding that there are some that actually made it into Europe. 
But China is the route to get out.
    Mr. Foarde. Thank you.
    Mr. Kim. When they cross to China, they find ethnic Koreans 
so there is no problem of communication.
    Mr. Foarde. Right.
    Mr. Kim. But the moment they set their foot on the 
territory of Russia, they have communication problems. That is 
why we do not see so many of them crossing over to Russia.
    Mr. Foarde. Thanks very much.
    I am going to pass the questioning on now to our friend and 
colleague, Karin Finkler, who represents Congressman Joe Pitts, 
one of our Commissioners. Karin, good to see you. Please.
    Ms. Finkler. Thank you for your testimony.
    I think I would like to start with Ms. Scholte. If you 
could clarify further what the UNHCR position is on its 
dealings with the 
Chinese Government, that would be helpful. I do not know if 
that position has changed since the resolution was passed last 
week regarding a Special Rapporteur being designated to deal 
with North Korean refugees, but if you could clarify what that 
situation is, that would be helpful.
    Mr. Charny. I do not think that they are doing anything. I 
think they are completely failing to fulfill their mandate. 
What I hear is that they are worried that if they really 
confront the Chinese on this, that the Chinese will kick them 
out of China.
    Mr. Kim. Yes. They say, ``Yes, we are trying,'' but China 
is operating--for quite a long time, we thought that was the 
case until--Mr. Radwan brought it to their attention and 
finding an arbitration clause. We were very surprised. We 
thought that the UNHCR wanted to do the right thing, but they 
did not have bullets. Now we are told that they did have 
bullets and did not fight, and they did not want to fight. We 
do not feel quite comfortable with the UNHCR. So, we in the 
field used to consider the UNHCR as outsiders.
    Mr. Charny. I am going to play devil's advocate and defend 
UNHCR, to a degree. First, UNHCR did declare, at the October 
2003 session of the Executive Committee, that all North Koreans 
in China are ``persons of concern.'' What does that mean? That 
means that UNHCR has reason to believe that most North Koreans 
in China would have a claim for refugee status if UNHCR were 
able to examine their situation. Now, you can say, ``So what? 
'' UNHCR does not literally have bullets. They just have the 
means of working within international humanitarian law. For 
them to go out on a limb and declare all North Koreans in China 
``persons of concern,'' it does not sound like much, but by 
UNHCR standards, that is bold.
    The second thing is, this arbitration thing I really think 
is a red herring. What UNHCR is saying is that they have 
agreements related to the technicalities of their 
representation in every country that they work in. They do not 
want to take that agreement to binding arbitration because it 
sets a precedent that any time they have a disagreement with a 
government, they are going to have to go to arbitration based 
on this narrow legal document. The bottom line for me and for 
UNHCR is this: China is violating the Refugee Convention.
    That is where you want to start, not around this agreement 
with the government of China. In the Refugee Convention, there 
is a provision to take a country that is violating the 
convention to the International Court of Justice. That is the 
avenue that should be pursued. Now, am I naive enough to think 
that UNHCR is going to take China to the International Court of 
Justice? No way. But they could if they had the political 
backing of the United States, of the European Union, and of 
other major countries that believe in the Refugee Convention.
    So look at the Haitian refugee situation. I mean, UNHCR was 
protesting to the Bush administration every day about the Bush 
administration's treatment of Haitian refugees. It did not make 
a bit of difference. UNHCR has very little power compared to a 
government like that of China, so we need the United States and 
other powerful countries to get behind this issue, but focused 
on the Refugee Convention, not on this agreement.
    Ms. Finkler. In some of the testimony, the issue of 
trafficking in persons was mentioned. Obviously, there is some 
information that is filtering out. There was a recent article 
in the Washington Post detailing some of these issues as well. 
Do you know of any thorough investigative reports that are 
being done by organizations that deal with trafficking that are 
focused exclusively on the issue of trafficking in North 
Koreans? That question is for anybody to 
answer.
    Ms. Scholte. It is really, really difficult. Part of the 
problem, just to give you an example, we had a woman that was 
going to testify next week, and she backed out. There is such a 
stigma attached to it. The North Korean women, some of them do 
not want people to know. It is horrible. What I based my 
comments on are the groups that are on the ground, like Helping 
Hands Korea, like Tim Peters and some of the groups that he 
works with that are working with refugees and helping them to 
get resettled. But it is very difficult. I do not know of any 
group that is actually focused on that, but there have been 
reports.
    Good Friends and Citizens Alliance did a survey several 
years ago and that is where they came up with the figure of 50 
percent or more. But some of the workers that are working there 
think it is as high as 70 to 90 percent. But I can get those 
reports for you.
    Ms. Finkler. Thank you. Yes. That would be helpful.
    Ms. Scholte. Also, one thing I would like to mention, I 
would like to submit as well the list of the humanitarian 
workers and the refugees that we know that have been seized.
    Mr. Foarde. Please do.
    Ms. Scholte. This is a list that we started several years 
ago and have had to add to, unfortunately.
    Mr. Foarde. Yes. Please do, for the record.
    Ms. Scholte. It was reviewed by seven NGOs.
    [The information appears in the appendix.]
    Mr. Kim. Again, this is an area where no survey could be 
officially made, so it is up to everybody's educated estimate 
to educate. But inside North Korea, there is a widespread kind 
of rumor that women have a chance of survival if she goes to 
China, which is an indication that they know that, yes, you 
will be a victim of human trafficking, or whatever. But if you 
are in North Korea, you are doomed to death. Once you are in 
China, however disgraceful it might be, you have a good chance 
of survival.
    So as other speakers indicated earlier, yes, many women 
come to China expecting that kind of arrangement to be made. 
And as other speakers noted, I have seen many happy cases of 
men and women happily married, but a much larger percentage 
have been very unfortunate situations. For example, one of the 
women I interviewed was with a group of some 15 young girls. 
They were put in a Chinese van. They were crowded inside a van 
and they were visiting, village by village. When they reached a 
village, they are told to line up in front of the van. Then all 
the villagers come out and negotiations go on, and one or two 
girls were picked up by some Chinese farmers in one village. 
Eventually, the number became smaller. This was in 1999. So 
until that time, it could have been partly open. Now, I do not 
think they can do it, but that was the practice at one time. 
All kinds of things are going on, but unfortunately we are not 
in a position to study or to carry out any research. In fact, 
we have been hearing much more pathetic and tragic stories 
involving North Korean prostitutes in the larger cities.
    Mr. Foarde. Thank you. I would now like to pass the 
questioning on to a colleague from the U.S. Department of 
State, Christian Whiton, who represents Under Secretary of 
State for Global Affairs Paula Dobriansky.
    Christian, Please.
    Mr. Whiton. Thank you, John. I appreciate that. My first 
question is to Mr. Charny. You talked about, with China, 
starting a dialog here today about how to push them toward 
recognizing that it is in their interests to be more 
cooperative and to stop sending people back to North Korea. Mr. 
Kim actually made a suggestion as far as a switch in diplomatic 
tactics, and I was wondering if you had any reaction to that.
    Mr. Charny. I really think you need to do both, there is no 
doubt. My concern on the embassy seizure or embassy invasion, 
as a strategy, is basically when high-profile strategies like 
that are used, the word comes down to arrest and deport more 
people in the region. So, you are basically making a tradeoff. 
You are saying that 50 people are safe, but X number more 
people are going to be arrested and deported. Is that a 
tradeoff that you are willing to make?
    I could argue both sides of that issue because the embassy 
seizures have absolutely raised the profile of this issue to 
the point where we are having a hearing like this and it is an 
issue that has garnered worldwide attention. From a 
humanitarian perspective, though, if you face up to the reality 
of the impact of those tactics on families along the border, it 
becomes a much more difficult issue to weigh. I am not an 
expert on moving China on human rights issues. I feel like we 
are kind of grasping at straws. That is why I was throwing out 
the retired eminent person strategy. I think you need public, 
high-profile pressure. But you also need quiet, back-channel 
communication, in essence, to say, ``Come on, you can do this. 
You can be humane without jeopardizing your interests.'' If 
that message is delivered quietly by people whom China 
respects--I am not talking about UNHCR now, I am talking about 
people that they have dealt with on real political issues for 
30 years. If someone like Henry Kissinger tells the Chinese 
that they really need to do something about this issue, it is 
embarrassing them or lowering the respect for them in the U.S. 
political context, maybe they would listen.
    Mr. Whiton. All right. Thank you.
    Ms. Scholte, you talked about the operations of North 
Korean intelligence personnel in China. Is your assessment 
mainly that this is sort of a liaison-type relationship or do 
you think there is a significant presence of actual North 
Korean intelligence operatives in China?
    Ms. Scholte. Well, we have actually hosted a defector last 
year, and one of his tasks was to go into China and track down 
high-profile refugees. So, they have worked closely. The 
Chinese allow these North Korean agents to go in and try to 
track down defectors. We know in the case of Mr. Sohn, and I 
know you knew him, the Chinese caught him and they let the 
North Korean agents beat him to death right in front of them.
    Mr. Whiton. And that took place in China?
    Ms. Scholte. Yes. You might want to comment some more on 
that.
    Mr. Kim. Yes. I might be in a better position to answer 
this question. When she made reference to Mr. Kato, in fact, 
Mr. Kato and I were the same target of the North Korean agents. 
We heard from different sources that there was an offer of a 
money and a car for his head and my head from different 
sources. That is why we are absolutely convinced. The amount of 
the bounty, money, was 300,000 Chinese yuan, about $35,000 U.S. 
dollars, or something. That amount is not for the North Korean 
agents to keep. This amount is for the North Korean to use for 
Chinese law enforcement officers so that they can help them in 
catching us.
    There were three attempts by the North Korean authorities 
to kidnap Mr. Kato and me. The first one, it was a group of 
eight. The second time, it was a group of seven. The third 
time, it was a group of six from the North Korean Embassy in 
Laos. At that time, we were operating in the southern part of 
China. So they knew that, and they thought they could lay hands 
on us. At that time, the Chinese intelligence people told us 
about this, and that is how we are so certain about the 
activities of the North Korean agents in China.
    Mr. Whiton. I understand. All right. I understand. Thank 
you. Do I have time for just one more?
    Mr. Foarde. We will come back.
    Mr. Whiton. All right. Thanks.
    Mr. Foarde. Let me go on and recognize the other 
representative of the U.S. State Department who is here today. 
Rana Siu works for Assistant Secretary of State for Democracy, 
Human Rights and Labor Lorne Craner.
    Rana, welcome.
    Ms. Siu. I would, first, like to thank the three panelists 
for your testimony. I very much appreciated hearing from you. I 
think we all share the same goal on this issue.
    My question is mainly addressed to Mr. Charny, although any 
of the panelists are welcome to answer. I very much appreciate 
your idea that we should use more creative, quiet diplomacy 
efforts, including enlisting the senior retired U.S. officials. 
Thinking outside the box, are there any other things that we 
can do, and should be doing?
    Mr. Charny. Well, I have met with people both at State and 
in your bureau as well. Our plea is that this issue be placed 
on the list at a higher level than it appears to be right now. 
In other words, there are so many issues that we have with 
human rights with China, it is hard to move anything closer to 
the top because the agenda is so vast.
    But our plea is that this make it in the top five, that 
this be a subject for discussion. When the Vice President goes 
to China, or when the Premier of China comes to the United 
States, I would like to think that this could be an issue that 
is on the agenda.
    My impression is that it is not. We are very good friends 
with Assistant Secretary Dewey. We have periodic meetings with 
him. He was headed to China. I forget the exact date of the 
trip; I think it was in August of last year. We pleaded with 
him to put this on the agenda. But his number-one agenda was 
the whole Chinese population policy and forced abortion, and so 
on. So you pick your priorities, you make your choices as to 
what you are going to come up with at any given time. But 
certainly our plea would be that this rise to the level of an 
issue that is part of our ongoing human rights dialog in a 
serious way.
    Mr. Foarde. All right. Another question? Or if you have a 
comment, please go ahead.
    Mr. Kim. Yes. I think that this is a very clear, 
straightforward, and obvious case. It is not a legal argument 
or a controversy at all, so I wish the American Government can 
take a stronger position on this issue. Being diplomatic, 
appealing, is seen as a sign of weakness by Koreans or the 
Chinese.
    If I may, I wish to draw your attention to a great modern 
Chinese writer, Lu Xun. He is considered to be the father of 
modern Chinese literature. One of his classical, typical short 
stories is entitled, ``The True Story of Ah Q.''
    That short story was considered by everybody, both the 
Chinese and western scholars, a classic description, and a very 
precise one, of the Chinese characteristics, being merciless to 
somebody weaker and unconditionally submissive to somebody 
stronger than he is.
    The South Korea Government has made mistakes for the past 
10 years without learning any lessons. They always beg the 
Chinese authorities for mercy and it never works. When Mr. Kato 
was arrested, the Japanese Government was entirely different 
and that made the difference between seven days and two years. 
So, this is the lesson I wish we could learn. So, less 
diplomatic, and be straightforward. Speak to the Chinese 
directly and say, look, this is where you are making a mistake.
    Mr. Charny. Just very quickly. This is not a government 
initiative, but I think Suzanne's idea of a citizen boycott is 
very interesting. I think to start to organize and mobilize 
something like that could be a way to raise the visibility of 
this issue. That is out of the box, but it is not government 
out of the box.
    Ms. Siu. Ms. Scholte, in your testimony you mentioned the 
very troubling report that came from the Durihan Missionary 
Foundation. I saw that report, too, and was quite concerned. Is 
it your sense that this is a regular occurrence? I am talking 
about the North Koreans who were shot at, and one was indeed 
shot by Chinese border security, on their way to Mongolia.
    Ms. Scholte. I am going to let you answer that, too, Mr. 
Kim. But my understanding is, they are still repatriating 
between 100 and 200 a week. I think that we do get enough 
information out to know when the killings actually occur. So, I 
do think that is happening regularly. But we know in cases like 
this one, where we have had people on the ground that saw it, 
we also know that when they get sent back into North Korea, 
there is no way to know how many have been executed in North 
Korea. We had gotten plausible information that they were 
actually killing children who had crossed the border if they 
had crossed the border three times. You referred to that 
earlier, that there is some fluidity. That is why it is hard to 
get the exact number of the refugees. They are also moving in-
country more, too, but that is not a controversy. But you want 
to answer that?
    Mr. Kim. We have the names of the total number of refugees 
involved this time. We have been trying to find out who was 
killed, and we have not been able to confirm by the time I was 
leaving for Washington. Six of them, we believe, went to 
Mongolia, and we still do not know which of the six are safe 
and who were the people who were arrested there. But it was the 
spokesman of the South Korean Government who announced that 
Chinese authorities admitted that one refugee was shot to death 
during the physical scuffle.
    Now, according to the South Korean Government announcement, 
the Chinese have said that they know one of the North Korean 
defectors tried to get the gun from one of the guards, and in 
doing so, by mistake, the bullets hit the North Korean 
refugees, which I find rather absurd to believe under such 
circumstances. Anybody trying to get a gun out of the Chinese 
guard's hands, outnumbering them, I think that is not likely. 
But the part of the whole announcement, is that the Chinese 
would have sent the surviving refugees back to South Korea. In 
the past, there were such a wishful observations, yes, Chinese 
have agreed, so they will be sent to Korea, but it never took 
place. I hope this time they mean what they said, but we will 
have to wait and see.
    Mr. Foarde. Thank you very much. Let me recognize our 
friend and colleague, Susan Roosevelt Weld, who is the general 
counsel of the Commission staff.
    Susan.
    Ms. Weld. Thanks a lot, John.
    This is a very quick first question. I notice in the paper 
there were reports that the North Korean leader had made a 
quiet trip to Beijing. I assume Beijing would have other 
matters to discuss with the North Korean leader. Is there any 
chance that this kind of thing would be discussed?
    Mr. Kim. Well, we are humanitarian aid workers. Normally, 
we stay away from politics.
    Ms. Weld. All right. Could I hurry on to the next question, 
which is, when the humanitarian workers are arrested by the 
Chinese, what charges are being filed against them?
    Mr. Kim. It is rather strange. The charges they brought 
against Mr. Kato were absolutely irrelevant. The charge brought 
against Mr. Kato was that he spoke to a large numbers of 
Chinese to agitate them into some kind of actions against the 
government, or something. But Criminal Code Article 318 is 
related to organizing illegal border crossings. Now, in the 
case of Kim Hee-tae, he was never involved in partaking or 
otherwise assisting North Korean defectors into China or out of 
China. He assisted a group of refugees from a location inside 
China to another location inside China. No border was involved. 
Nevertheless, he was charged with the same article.
    It appears that the Chinese take these types of cases very 
seriously. For example, their law says that nobody can be 
detained for more than 2 months and 15 days without a trial, 
but under certain conditions, it can be extended up to six 
months. In the case of Reverend Choi Bong-il and Kim Hee-tae, 
they were tried after over 10 months. Now, Chinese law says 
that the final verdict must be served within 15 days of the 
trial. Now, it is almost over 1 year after what they called a 
trial, and there is no verdict, and they are being detained. 
So, we just do not know what kind of situation this is. They do 
not seem to care about the legal provisions. They only care who 
is strong.
    Ms. Weld. Do either Suzanne or Joel have more information 
about these trials?
    Ms. Scholte. Yes. As far as the crime, crossing persons 
across the border illegally, that is what they held Pastor 
Chung for as well. I believe they held him for nine months.
    Ms. Weld. That is what it has been in all the cases.
    Ms. Scholte. Yes. That is in the ones I am familiar with.
    Mr. Kim. Yes. He was detained for over seven months, and at 
that time he was trying to send 11 refugees over to Mongolia. 
So, yes, illegal border crossing is involved.
    Ms. Weld. In that case.
    Mr. Kim. Yes. But with the resolutions passed by both the 
House and the Senate, he was released. Otherwise, we would 
still have him there.
    Ms. Weld. Do you have any information from the people you 
talked to?
    Mr. Charny. In all honesty, the issue really did not come 
up on our visit. The impression I had is that the networks 
assisting North Koreans are under tremendous pressure, but 
there have not been any recent arrests. Indeed, we spoke to 
people who had actually been in contact with North Korean 
officials who were seeking assistance from their varied 
networks to help them improve the humanitarian situation inside 
North Korea, stressing once again just the fluidity of the 
situation. It is not a border that is like the Berlin Wall. It 
is a border that is fluid.
    North Koreans are desperate, including local officials. 
They are in touch with some of the very networks that are 
helping refugees. I am not trying to portray the North Koreans 
as humanitarians. I am simply saying that, again, everyone is 
trying to survive and there is a fair amount of contact between 
local officials on both sides of the border.
    Mr. Foarde. I would like to go on now and recognize the 
colleague who helped organize this afternoon's roundtable, 
Chris Billing. Chris is the director of communications of the 
Commission staff.
    Over to you for questions.
    Mr. Billing. Thanks, John. Thanks, all of you, for coming.
    Joel, in your testimony, you said that severe penalties are 
reserved for those known to be Christian activists in the 
border area. Why is that? I was wondering if you could all give 
me an answer as to how widespread the Christian activity is in 
the border region.
    Mr. Charny. Well, as Suzanne, I believe, mentioned, the 
issue is that most of the networks that are assisting North 
Koreans who cross are motivated by Christian commitment, and 
when the North Koreans come in contact with them, some of them 
choose to convert, some do not. But the point is that the 
atmosphere is very much an atmosphere where Christians are 
laying their lives on the line to assist people.
    Now, some North Koreans who cross make the choice that they 
are going to convert, and even decide that they are going to go 
back and engage in Christian or evangelical activity inside 
North Korea. If those people are known to be Christians, known 
to have converted, and especially known to have an evangelical 
agenda upon return, they are the ones who are especially 
vulnerable. That is my understanding of the situation.
    Ms. Scholte. The history of that, basically, is that the 
Kim Il-sung regime tried to wipe out Christianity. They 
consider Christians to be a threat to the regime, because Kim 
Il-sung is God, and they have this twisted perversion of the 
Holy Trinity. Kim Il-sung is God, Kim Jong-il would be the 
Christ figure, and the Juche ideology is the Holy Spirit. This 
has been stated repeatedly by this regime: that they want to 
wipe out all elements of Christianity. So what has happened is, 
because of the border crossings and people finding out that 
China was like a paradise, you had this constant flow back and 
forth and people were bringing back information, and people 
were being exposed to Christianity. So, this had become a real 
threat. They had the Black Book Campaign under Kim Il-sung, 
where they gave rewards for people that turned in the Bible 
when they were trying to wipe out Christianity.
    But now, even in the camps, there are believers in the 
camps, and we have had witnesses testify, defectors who 
survived the prisoner camps, about how the camps were horrible 
for everyone. These are death camps. But the Christians are 
particularly cited for persecution. So now, because of this 
exposure to Christianity, there are all these underground 
churches that are developing in North Korea, despite the 
repression. But the Kim Jong-il regime considers this a major 
threat.
    Mr. Kim. In the past, when North Korean defectors were sent 
back to North Korea, the interrogators' first question was, 
``Are you Christians,'' or ``Were you in contact with South 
Korean agents? '' Now the first questions include, ``Have you 
been to church? Have you been to South Korean missionaries? '' 
These have become the first questions. They now really feel a 
threat and they seem to be feeling that they are besieged by 
Christians.
    Mr. Foarde. I would like to recognize our friend and 
colleague Carl Minzner, who is a senior counsel on the 
Commission staff.
    Carl.
    Mr. Minzner. Thank you very much. I think I will just 
continue to follow up on the quite interesting exchange you 
just had. We were talking about the activities of the 
Christians in Korea itself. I also wanted to ask a little bit 
about the activities of the Koreans on the Chinese side.
    I had two questions with respect to that. First, can you 
describe in a little bit more detail about what sorts of 
activities the Korean-Chinese Christian community engages in to 
support Koreans who have made it across the border? The second 
is could you tell me a little bit more about the activities of 
foreign NGOs that are sending individuals into the Chinese 
border area to assist the refugees, particularly the churches 
that are sending people there? Do they distinguish between 
humanitarian and missionary activities or are they linked 
together?
    Certainly, in many other places in China you have foreign 
Christian groups who go to China and then are engaged in 
providing social services, but then are also perhaps involved 
in sort of quiet missionary activity. Is that the same 
situation in the border area here? And any one of the three of 
you can respond.
    Mr. Kim. The situation there is rather complex in the sense 
that everybody is doing some kind of work underground, without 
letting others know. They may be drinking tea together, but 
they do not know what the other guys are doing. Yes, many South 
Korean missionaries are out there in many small groups. How 
many of them, nobody knows. Some groups are basically 
interested in providing humanitarian assistance. Those people 
are normally, for example, getting sacks of rice and food. 
There are underground churches along the border. They stack 
food bags, pack them up, hide them up in the church and leave 
the lights on, and they leave it there, nobody watching the 
place, hoping that the bags will disappear during the night. In 
fact, they are hoping that North Koreans will come and pick 
them up and go back. This is quite a large operation which has 
not been very much reported on or received media attention, but 
this is one of the widespread types of operations.
    The other one is that they are more interested in 
converting lost North Koreans to Christianity, but in order to 
do so, when you see them just across the border, they are 
somewhere between animals and human beings. So what you need to 
do, is immediately get something to drink, to eat, new clothes, 
socks, shoes, everything. So, you do provide them. Of course, 
they need shelter, which they provide. Once these things are 
provided, you cannot kick them out of the shelter, because then 
they will be arrested. You keep them inside, indoors somewhere. 
What are you going to do with them? Often, there they have 
prayer meetings and Bible class. There, some people from South 
Korea also come and meet them and teach the Bible, discuss 
Christianity, and those types of things. Some of them are so 
moved by their new faith that they volunteer, that they want to 
risk their life to bring this happy, good message to the North 
Korean people.
    The NGOs from outside, normally they are not actually 
involved with doing something themselves. They have to count on 
Korean Chinese, ethnic Chinese operations. So ethnic Chinese 
are normally not in a position to help others in terms of 
support and finance. They are very poor people. They need 
somebody's help to continue their work. Humanitarian aid 
workers and NGOs that work from the outside are supplying their 
assistance to these Korean-Chinese so that they can continue 
with their work.
    Mr. Charny. That was really a brilliant description. The 
only thing I would add, is just to stress that there are 
virtually no international humanitarian organizations that are 
operating in this part of China. There are ones like Doctors 
Without Borders, ``Medicins Sans Frontieres,'' that ordinarily 
you would expect to be there, or the International Rescue 
Committee, but either they absolutely cannot operate, or have 
chosen not to operate because of the difficult conditions 
there.
    Ms. Scholte. I was going to make a comment, too. Some of 
the people who are most effective, you will never hear about 
them. But if you want to meet them sometime, let me know. It is 
amazing, the things that are going on. They have to be really 
creative. But sometimes the NGOs that are involved have to make 
an assessment on whether it is safer to keep them in China or 
try to get them out, and that is something you have to weigh 
all the time. The family I referred to earlier, the Zhang 
family, that was quiet diplomacy in trying to get them out. We 
did not go public with their case. The father had been in the 
military. The reason why he left North Korea, is because his 
troops were starving and he had crossed the border into China 
to get them food so they could feed their families, so the 
regime put him in a political prisoner camp. When he got out of 
the camp, he told his family: ``We have got to get out of 
here.'' They were from Pyonyang, so they were part of the 
elite. His wife was the daughter of a colonel, and they had 
converted to Christianity. They had been on the run for, like, 
five years, being hidden in safe houses by Christians. The 
determination was that we had to get them out because of their 
high-profile status, but for five years they were on the run. 
They did finally get out, but it was really hard.
    Mr. Foarde. Thank you, all. I want to come back to 
Christian Whiton, who had an extra question. Please, go ahead.
    Mr. Whiton. Thanks, John. I just had one quick one.
    Mr. Kim, if I could direct this to you, but any of you 
could comment, though. It is a little more aggregate in nature 
and it is on the situation within North Korea with the exodus 
of people, if you can call it that. I think it was mentioned--I 
do not know if it is a consensus--that the numbers of people 
seeking to leave are 
increasing.
    As that increases, what effect does that have on the ground 
in North Korea, and particularly in relation to, say, political 
pressure on people with power in North Korea to change? Do you 
perceive any of that, and is there sort of fluidity in that 
regard in North Korea?
    Mr. Kim. The numbers are increasing. I am not quite sure, 
but one of the South Korean professors has an underground 
investigation ongoing about the situation and he said that the 
numbers are increasing. And we did not believe his observation 
because, in 1997, 1998, the early part of 1990, if you would go 
to the market in China, or even at the airport, you see North 
Korean pick-up boys coming to you for help. They are easily 
spotted, in the market, wherever. They are easily spotted. You 
do not see them there any more.
    Now, this professor's report was that, in the early days, 
North Koreans came to China without any knowledge about 
geography, the locations of villages, who is in which village. 
Now the information about the location of good-hearted, helpful 
people from villages and roads are there, check-points, and 
those things. When they now come to China, they are well 
prepared for where to go, unlike in previous days when they had 
to wander around. That is why they are not as easily spotted as 
they used to be. But the number is increasing, and a greater 
number of them are there. I am not quite sure if the number is 
increasing, but again, the number keeps going up and down.
    What was the other part of your question?
    Mr. Whiton. The other part was the effect it was having in 
North Korea.
    Mr. Kim. Yes.
    Mr. Whiton. Is this creating any pressure on the local 
side?
    Mr. Kim. Once I was in contact with a North Korean official 
in China at midnight. He was really worried about the problem 
of North Korean defectors being sent back to North Korea. There 
are problems in North Korea. After they passed the rule--
persecution--routine interrogation process, they are sent back 
to their village or their previous location, or whatever. They 
do not keep their mouths shut. They begin to speak to 
relatives, friends, and neighbors about what they saw in China. 
Once they are in China, a large percentage of them are exposed 
to South Korean TV broadcasts, which they find amazing. So, it 
is very difficult to keep yourself quiet. It sounds very 
amazing. You want to tell everybody. This has become viewed as 
a threat and menace to the regime in North Korea, and they were 
very serious about it. At one time, according to him, they were 
seriously thinking of not accepting those Korean refugees 
because they are a source of new problems. So, this is the 
situation.
    The other thing is the information which used to be 
restricted is now less restricted. Now the knowledge and 
information about China, South Korea, and the outside world has 
become so widespread inside North Korea. So, yesterday and 
today are quite different. More and more North Koreans are 
aware of outside world. So, I hope this answers your questions.
    Mr. Whiton. Thank you.
    Mr. Foarde. Does anybody else have a quick reaction?
    Ms. Scholte. The defectors who have worked on the border 
have told us that it is impossible for that regime to close off 
that border. They have tried to do it, but cannot.
    Mr. Foarde. Interesting. Let me go to Karin Finkler for a 
question. Karin.
    Ms. Finkler. Yes. Mr. Kim, you mentioned that you and 
others that you know have been the target of attacks by North 
Korean intelligence agents. I know there are defectors in South 
Korea who have suffered the same thing. This question is for 
all of you. With people who have come to the United States and 
been resettled here, do you know if they are also targets of 
attacks by North Korean agents?
    Mr. Kim. I did not follow the last part. I missed the last 
part.
    Ms. Finkler. With people who come to the United States, 
whether they are resettled as refugees or high-profile 
defectors, have they been targets of the North Korean 
intelligence agents while in the United States?
    Mr. Kim. I do not think so, unless you had very special 
status, such as a high-ranking army officer or Party members, 
or professors, or something. No. There are too many for them to 
pay attention.
    Ms. Finkler. Because I know there have been reports of the 
Chinese Government trying to target local populations in the 
United States with various campaigns for information and that 
kind of thing, but I do not know if that is happening now.
    Ms. Scholte. You bring up an interesting point. How many 
North Koreans are there in the United States, and why are there 
not more? I can tell you some real horror stories about 
teenagers who went to the British Embassy on July 4 last year, 
wanting to come to the United States, being turned away. It is 
happening all the time and we are not doing anything to help 
these people.
    Mr. Foarde. To clarify, they were in the British Embassy or 
in the U.S. Embassy?
    Ms. Scholte. They got to the British consulate office.
    Mr. Foarde. In Beijing.
    Ms. Scholte. And they asked for political asylum in the 
United States.
    Mr. Foarde. But where, in Beijing? In Shenyang?
    Ms. Scholte. In Shanghai.
    Mr. Foarde. Shanghai?
    Ms. Scholte. Shenyang? It was Shanghai. Sorry. There are so 
many.
    Mr. Foarde. Yes, please go on.
    Ms. Scholte. But the Kim Han Mee family wanted to come here 
as well, and there were the two gentlemen who had surfed the 
Internet that also defected in May 2002, who wanted to come 
here and they went on a hunger strike in the American consulate 
office, wanting to come here. They were tricked and they ended 
up going to South Korea.
    Anyway, I just wish we were doing more. One of the things 
in the North Korea Freedom Act--the excuse that we use is that 
they automatically get South Korean citizenship, so go to South 
Korea. There was legislation introduced last year to say that, 
for purposes of political asylum, they would not be considered 
citizens of South Korea. But it is also in the North Korea 
Freedom Act. I believe our government should be doing more to 
accept these refugees.
    Mr. Foarde. Karin, another?
    Ms. Finkler. Thank you, no.
    Mr. Foarde. We are getting very close to the witching hour, 
but I would like to recognize Rana Siu for the final questions 
of this afternoon.
    Rana.
    Ms. Siu. Thanks, John.
    One of the solutions that people have talked about, is that 
China could allow the UNHCR quiet access to the border area and 
allow them to quietly process refugees. Do you think this is 
really possible? Do you think it is really possible to do this 
quietly?
    Mr. Charny. No. I mean, because of the fluidity that we 
have been referring to, and because it would just go through 
the underground information channels immediately, there is no 
way to quietly process. So, for better or for worse, it would 
have to be public. It should be public, but there is no way to 
do it quietly.
    Mr. Kim. If I could make a clarification of what Joel 
Charny said earlier, which is a quite popular misunderstanding 
in this situation. In 2001, seven North Koreans went inside the 
UNHCR. That was the first time they ever did it. At that time, 
the NGOs and humanitarian aid workers denounced them, saying, 
seven of them. We saved seven of them. As a result of it, so 
many other refugees are suffering because of the seven.
    At that time, we were very concerned about that 
possibility. Kim Hee-tae, who is now in a Chinese prison, made 
a special trip to China to make an investigation to see whether 
these allegations were true or not. After three months, he came 
back with a report saying no. That incident did not have 
anything to do with the repercussion on the North Korean 
refugees.
    In 2001, that was the year in China for the elimination of 
evil elements, or whatever. In March of that year, they 
executed the mayor of Shenyang because of his involvement with 
corruption, and the deputy mayor was also sentenced, but he was 
sick and died before execution. There were many other things 
like that, so that had nothing to do with this incident.
    Now, in March 2002, 25 North Korean defectors went to the 
Spanish Embassy, and people again thought, because of these 25 
people, many other people are suffering as a result. So it is a 
kind of tradeoff. My observation was entirely different. I was 
operating in China from 1996. At that time already, I tracked 
down refugees. Many refugees were arrested and sent back to 
North Korea. I was an a hotel one night and I was searched. 
They came and searched everybody. We found new check-points 
here and there. So there have always been ups and downs in the 
crackdown on North 
Korean refugees. So there have always been all these changes 
anyway, regardless of North Korean refugees who entered foreign 

embassies.
    People never paid attention to the usual crackdown that had 
been going on for many years. North Korean refugees entering 
UNHCR buildings or foreign embassies noticed the crackdown on 
the North Korean refugees had been going on for many years. 
Then they immediately concluded that the crackdowns are not as 
a result of this incident involving foreign embassies. For 
example, in the case of China's Spanish Embassy, at that time, 
it was Women's Day in China.
    Along the border, the Chinese villagers were assembling at 
the larger villages for dancing, music, and celebration, 
leaving many of their farmhouses empty and vacant. Then North 
Korean guards from the other side of the river in false 
uniforms crossed over the river and looted all the Chinese 
farms. The Chinese strengthened border security as a result. 
But some news media said it was because North Korean refugees 
entered the Spanish Embassy.
    More or less at the same time, there was an unsuccessful 
attempt by a North Korean couple to hijack a Chinese domestic 
airplane from Dalian to Harbin. But it did not work out. 
Naturally, the Chinese authorities strengthened their security 
measures.
    So, all these things came together, but some people 
concluded that North Korean refugees are arrested because some 
refugees entered the Spanish Embassy. Some people even believed 
that the North Korean refugees were happy and quiet in China, 
until a few of them began to create problems by entering 
foreign embassies.
    Mr. Foarde. I can tell that we have a serious disagreement 
of fact about how to interpret these different events, and 
whether causality is causation, or what have you.
    Ms. Scholte. Yes. I would like to comment on it.
    Mr. Foarde. Let me give you the final comment then.
    Ms. Scholte. That is, that people have been trying to get 
into embassies for years. The only difference is now, is they 
are smart enough to call the media ahead of time so that they 
at least get their face out there. I can rattle off the names 
of some defectors that got into embassies before this, and who 
knows how many tried and are dead now. But the reason why it 
seems like there has been some kind of a spike, is because they 
know, get the media involved.
    We were directly involved with the Han Mee family. We told 
them, do not tell anybody what you are going to do, but get the 
media. Thank goodness, they showed that footage of them trying 
to get into the Japanese consulate office or they would 
probably be dead.
    The other thing is the Chinese Foreign Ministry. There is a 
perfect example of seven people who were doing the proper 
thing. They are in this catch-22. The Chinese say, ``If you 
want political asylum, you have got to go to the Chinese 
Foreign Ministry to get your application to go to the UNHCR.'' 
So what happens? They go to the Chinese Foreign Ministry, and 
where are they?
    Mr. Foarde. On that note, I regret that we have to bring 
this afternoon's conversation to a close. As Suzanne pointed 
out, and a couple of the other presentations also alluded, this 
is the beginning of a number of activities over the next week 
or 10 days relating to North Korean refugees and North Korea 
Freedom Day. I encourage all of you to attend as many of those 
events as you possibly can and lend your support to them.
    For this particular event, though, on behalf of Chairman 
Jim Leach and Senator Chuck Hagel, our co-chairman, and all of 
the members of the CECC, many thanks to Joel Charny, Suzanne 
Scholte, and Kim Sang Hun for joining us this afternoon and 
sharing your expertise and your passion for this issue with us.
    With that, let me bring this one to a close. Thank you very 
much.
    [Whereupon, at 3:40 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Joel R. Charny

                             april 19, 2004
    I would first like to thank the staff of the Congressional-
Executive Commission on China for the opportunity to present testimony 
on the situation for North Korean refugees in China. North Koreans in 
China are extremely vulnerable to arbitrary arrest and deportation back 
to North Korea, where they endure sentences ranging from several months 
in labor training centers to long-term imprisonment to execution, with 
the severest penalties reserved for those known to be Christian 
activists or to have been in contact with South Koreans about the 
possibility of reaching the South. While the long-term solution lies in 
improving conditions inside North Korea, short-term solutions to 
protect North Korean refugees must involve changing their treatment by 
the Chinese. I am hoping that by presenting testimony and sharing ideas 
that we can come up with approaches to this problem that will result in 
real, immediate solutions to the terrible plight of North Koreans in 
China. Right now, Chinese policy and actions are part of the problem. 
Is there any feasible way to get China to be a part of the solution?
                               background
    In June I spent one week with a colleague in Jilin province in 
China interviewing North Korean refugees. They live a precarious and 
clandestine existence as illegal migrants in Jilin, which is the home 
of some one million Chinese of Korean ethnicity. Through contacts with 
networks of non-governmental organizations, largely affiliated with 
local pastors supported by donations from Christian communities in 
South Korea and the United States, the Refugees International (RI) team 
conducted interviews of 38 North Koreans, ranging in age from 13 to 51. 
This experience, as limited as it was, constitutes, to our knowledge, 
the most extensive interviewing of North Korean refugees in China by an 
American organization in 2003.
    The estimates of the number of North Koreans in China vary widely--
from under 100,000 to as high as 300,000. Based on our June visit and 
discussions with individuals involved in assisting the refugees, RI 
inclines toward the lower estimate, and believes that there are 
approximately 60-100,000 North Koreans presently in northeast China.
    The primary motivation of the North Koreans crossing into China is 
either to find a better life in China or to access food and other basic 
supplies to bring back to their families in North Korea. Among the 38 
people that RI interviewed, no one had experienced direct persecution 
for her or his political beliefs or religious affiliation prior to 
crossing the border for the first time. The Chinese government argues, 
therefore, that the Koreans are economic migrants rather than refugees, 
and should be treated the same way that the United States treats 
illegal migrants from Haiti or Mexico.
    From a refugee rights perspective, China's reasoning is flawed. The 
fundamental problem is that North Koreans are subject to special 
persecution upon being deported from China, with the minimum period of 
detention in ``labor training centers,'' which are tantamount to 
prisons, being two months. Second, everyone in North Korea is divided 
into political classes, with less privileged people, who constitute the 
majority with suspect revolutionary credentials, receiving lower 
rations and less access to full employment. The deprivation that North 
Koreans are fleeing cannot be isolated from the system of political 
oppression that epitomizes the North Korean regime. These factors taken 
together give North Koreans a strong case for being considered refugees 
in their country of first asylum.
        the current situation for north korean refugees in china
    The experience of conducting 38 interviews of North Korean refugees 
over the space of a week was harrowing. While the demeanor of the 
refugees ranged from a matter-of-fact passivity to emotional fragility 
to defiance, the stories that they told were consistent in their grim 
portrayal of life in North Korea and the losses that they had suffered, 
especially during the famine period, but in some cases more recently. 
Most of the refugees that RI interviewed were originally from areas in 
the far north and east of the country, regions that had been denied 
international food aid during the famine as described in USAID 
Administrator Andrew Natsios' book, The Great North Korea Famine. 
Approximately half of the refugees had lost at least one relative to 
starvation or disease and an equal portion had been arrested in China 
and deported at least once. The following account illustrates what 
North Korean refugees go through:

          We first came to China in 1997. We have been arrested and 
        deported a total of three times. In April 2002 my husband, my 
        son, and I were arrested. My daughter happened to be out at the 
        time. We were taken to the border crossing point at Tumen and 
        handed to the North Korean security guards. We first went to 
        the county labor training center, then to the local one in our 
        home town. We worked on construction and road building 
        projects, and were provided only with bad corn and corn 
        porridge for food.
          In June 2002 my husband and I returned to China. My son was 
        delivered to the border by another person. We returned to where 
        we were staying in China and found our daughter.
          We were arrested again in September 2002. This time it was 
        the whole family. In October my daughter and I returned to 
        China, but my husband and son stayed in North Korea. In 
        February they tried to come, but they were arrested in North 
        Korea. My son was sent to an orphanage this time, and my 
        husband to a labor training center. He got sick there, was 
        released, and died three days after his release. My son tried 
        three times to escape from the orphanage and return to China, 
        but each time he was caught and returned. Finally, he was able 
        to escape and re-join us in China in March.
          In April my daughter and I were arrested again and deported. 
        On this return I learned that my husband had died. My son had 
        not known. We were again put in the local labor training 
        center. I wanted to see the grave of my husband, so the guards 
        allowed me and my daughter to leave. We then escaped again and 
        returned to China.

    The testimony of recent arrivals, nine of whom had come to China 
before June 2003 and three of whom had crossed into China within a week 
of our meeting, belied the reports that the North Korean economy has 
been improving in response to the limited economic reforms initiated in 
July 2002. In separate interviews, the recent arrivals, who were 
largely from North Hamgyung, reputedly one of the poorest provinces in 
North Korea, consistently stated that the public distribution system, 
which prior to 1994 assured the availability of basic food for the 
population, had completely collapsed. The economic reform program has 
resulted in rampant inflation. The price of rice and other basic 
commodities has skyrocketed, while wages--for coal miners, for 
example--have not kept pace. Children receive no food distributions at 
school, and many schools have stopped functioning while teachers and 
students search for means to survive.
    What is especially shattering for North Koreans is the contrast 
between their life of misery and the life lived by Chinese of Korean 
ethnicity across the narrow border. The Tumen River, which marks the 
northernmost part of the border between North Korea and China, is no 
wider than 100 yards and shallow enough to walk across in certain spots 
in summer. Yet it marks an Amazonian divide in living standards and 
economic freedom. When RI asked a 35-year-old North Korean man who had 
arrived in China just three days earlier his initial impression of 
China, his eyes welled up. He bowed his head and he began sobbing. The 
stunning contrast between his life of fear and deprivation in North 
Korea and the relative wealth he found on the other bank of the Tumen 
River was shattering. Even refugees who had been in China longer could 
not help expressing their gratitude and amazement that in China they 
ate rice three times a day.
    The constant threat of arrest and deportation, however, means that 
China is far from a paradise for North Koreans. Men have a difficult 
time finding sanctuary in China because staying at home is not an 
option and moving around Yanji city or rural areas to find day labor 
exposes them to police searches. The few long-staying male refugees who 
RI interviewed were established in a safe house deep in the countryside 
with access to agricultural plots in the surrounding forest. Otherwise, 
men tend to cross the border, hook up quickly with the refugee support 
organizations, access food and other supplies, and then return to their 
homes in North Korea. RI's impression based on very limited data is 
that this back and forth movement, when the motivation is clearly to 
obtain emergency rations, is tolerated by the North Korean and Chinese 
border guards.
    One protection strategy available to women is trying to find a 
Korean-Chinese husband. The problem is that these women are vulnerable 
to unscrupulous traffickers who pose as honest brokers for Chinese men. 
RI was unable to define the scope of this problem, but anecdotal 
evidence suggests that the trafficking of North Korean women is 
widespread. Women, some of whom have a husband and children in North 
Korea, willingly offer themselves to gangs along the border who sell 
them to Chinese men. These women see this as their only option for 
survival. RI interviewed several women who, knowing that they were 
going to be sold, escaped from the traffickers once in China. Other 
North Korean women are successful in finding a Korean-Chinese husband 
and achieve a measure of stability in their lives. Probably the two 
happiest refugees that we spoke to during our week in China were two 
women who were part of stable marriages. These women, however, like all 
North Koreans, are unable to obtain legal residency in China. If the 
couple has children born in China, the children are stateless. North 
Korean children in China are not able to get a formal education.
    The accounts of the treatment of refugees upon arrest and 
deportation were remarkably consistent across the range of individuals 
that RI interviewed. Refugees arrested in Yanji and surrounding areas 
in Yangbian were handed to the North Korean authorities at the border 
crossing point at Tumen. They were then transported to ``labor training 
centers'' in their village or town of origin in North Korea. The length 
of detention in these centers was consistently two months. Conditions 
in the centers were terrible. The deported refugees experienced hard 
labor on construction projects or in the fields, with very limited 
rations. A thin porridge made from the remnants of milled corn was the 
most common food. Medical care was completely unavailable. Indeed, RI 
was struck by several accounts indicating that severely ill detainees 
were released rather than cared for, presumably so they would die 
outside the center, freeing the guards from any responsibility for 
burial.
    The North Koreans consider meeting with foreigners, especially with 
South Koreans to arrange emigration to South Korea, and adopting 
Christianity with the intention of propagating the faith inside North 
Korea to be serious crimes. According to several refugees, the 
punishment for deported refugees suspected of either act is life 
imprisonment in a maximum security prison camp or execution. For 
obvious reasons, RI was not able to interview anyone who had been 
arrested for these ``crimes.''
            strategies for protecting north korean refugees
    Refugees International recognizes that horrendous oppression and 
economic mismanagement inside North Korea are responsible for the flow 
of people seeking 
assistance and protection in China and elsewhere in Asia. In this 
sense, only fundamental change inside North Korea will staunch the flow 
of refugees and bring freedom and economic security to the North Korean 
population. Analyzing ways to bring about the necessary changes with 
the least possible suffering, however, lies outside the scope of RI's 
expertise. I will therefore limit my remarks to near-term protection 
strategies in the context of the current political situation.
    The border with China is the lifeline for North Koreans in 
desperate condition, and therein lies the dilemma for those seeking to 
provide sustenance and protection for them. Any strategy for protecting 
North Korean refugees must be carried out in such a way that the 
approach does not result in steps that restrict access to supplies and 
security, or that lead to further arrests and crackdowns. Providing 
real protection while avoiding counterproductive provocations of the 
Chinese government is a difficult challenge.
    Despite this challenge, and the proven difficulties of changing the 
approach of the People's Republic of China on any human right issue, 
Refugees International believes that a practical, near-term protection 
strategy must first and foremost seek to establish greater security for 
North Koreans in Jilin province in China. The refugees that RI 
interviewed either expressed an intention to return to their families 
in North Korea after recuperating and obtaining basic supplies or to 
stay and try to make their way in China. The Chinese government has 
designated Yangbian as a Korean autonomous region; in consequence 
government officials are of Korean ethnicity and Korean is the official 
language of government affairs and commerce, along with Mandarin. Thus, 
North Korean refugees have cultural and linguistic affinity with 
Chinese in this region. Local officials try to avoid harassing the 
refugees and the periodic waves of arrests and deportations, according 
to local sources, are the consequence of orders from the national 
authorities in Beijing. The economy in the border area is vibrant, due 
in part to South Korean investment, but living in the regional capital, 
Yanji, or in smaller towns does not pose the immense problems of 
cultural adaptation that North Koreans have faced in the South.
    RI believes that the first step toward providing protection for 
North Korean refugees in China is for the Chinese government to stop 
arresting and deporting law abiding North Koreans who have found a home 
across the border. Given the factors favoring assimilation, and the 
healthy economy in Yangbian, this step should pose no immediate 
security or other threat to China. The U.N. High Commissioner for 
Refugees, Ruud Lubbers, claimed in June 2003 that Chinese officials had 
informed him that they would stop arresting and deporting North 
Koreans. China immediately denied any change in policy and reports in 
2004 suggest that indeed China has not stopped these actions and that 
as a result, attempts to cross the border into China have dropped, 
precisely the results that the Chinese government is seeking.
    Nonetheless, quiet implementation of a policy that halts the 
arrests and deportations would provide greater security to North 
Koreans while keeping the border open to the back and forth movement of 
people and goods that is a lifeline for poor people in the border 
provinces of North Korea. Given the available options, this best 
combines care for North Korean refugees with respect for the legitimate 
political and economic security needs of the Chinese government.
    Merely stopping the arrest and deportation of North Koreans, 
however, falls well short of China's obligations under the 1951 
Convention and 1967 Protocol Related to the Status of Refugees, to 
which it is a signatory. Further, China is on the Executive Committee 
of the Office of the U.N. High Commissioner for Refugees (UNHCR). Yet 
China not only refuses to grant refugee status to worthy North Korean 
asylum seekers, but prevents the Beijing-based staff of UNHCR from 
traveling to Yangbian to assess the situation.
    RI has called for UNHCR to engage proactively with the Chinese 
government to seek permission to visit Yangbian and eventually to 
establish an office in the region to monitor the status of North 
Koreans in China and to provide protection and assistance as needed. 
UNHCR's profile on this issue has been too low, considering the numbers 
of North Koreans in China and China's importance to UNHCR and the 
international community. The one positive step that UNHCR took in 2003 
was to declare all North Koreans in China ``persons of concern.'' While 
this has had no immediate practical effect from a protection 
standpoint, at least UNHCR signaled to the Chinese government that it 
categorically rejects their argument that North Koreans in China are 
economic migrants.
    RI recognizes that UNHCR's real leverage with the Chinese 
government on this issue is minimal. Only wider political support and 
engagement, especially at the level of the UNHCR Executive Committee 
and bilateral discussions between China and interested governments, 
will lead to meaningful change in the Chinese position.
    RI has urged the United States government to make the status of 
North Korean refugees in China a priority issue in its on-going human 
rights dialog with the Chinese government. We have raised this issue 
directly with officials of the State Department Bureaus of Population, 
Refugees, and Migration and Democracy, Human Rights, and Labor; they 
have assured us that this issue is indeed an important part of 
bilateral discussions with the Chinese. While RI accepts these 
assurances, we hope that the members affiliated with the Congressional-
Executive Commission on China will continue to impress upon the 
Administration the importance of Chinese action to facilitate UNHCR's 
access to North Korean refugees.
    A second possible approach to protecting North Korean refugees is 
third country resettlement. Resettlement faces equally determined 
opposition from China. The Chinese authorities have actively tried to 
prevent North Koreans from reaching the embassies of potential 
resettlement countries and refuse to allow diplomatic missions to 
establish facilities to assess eligibility for resettlement in Yangbian 
itself. What little resettlement there has been has resulted from high-
level defectors and other individuals reaching South Korea by boat or 
via underground railroad from China and the storming of embassy 
compounds in Beijing. The numbers are small. South Korea accepted a 
little more than 1,000 North Koreans for resettlement in 2003 even 
though their right to settle in the South is recognized in national 
law.
    For resettlement to be a meaningful protection strategy, both China 
and South Korea will have to change their policies. China will have to 
allow potential resettlement countries open and unrestricted access to 
North Korean refugees. This step would be a logical follow on to a 
decision to allow UNHCR access to Yangbian, but neither action appears 
politically feasible at this point. As for South Korea, its low 
admission numbers reflect more than the difficulty of North Koreans 
reaching South Korea. As I learned on a two visits to Seoul in 2003, 
South Korean citizens and the South Korean government have a remarkable 
ambivalence about the suffering of North Koreans. Citizens fear 
economic turmoil if North Koreans are admitted in large numbers, while 
their solidarity is limited by disdain for the poverty and lack of 
sophistication of North Koreans. As for the government, commitment to 
the Sunshine Policy and reconciliation more broadly locates the 
fundamental solution of humanitarian issues in gradual political change 
in North Korea that will result from engagement, rather than in large-
scale acceptance of refugees, an act that would anger the leaders of 
the North Korean government. The result is a marked lack of commitment 
by South Korea to offer resettlement to North Koreans.
    RI believes that in the near term resettlement is unlikely to be an 
option for more than a few thousand North Koreans. The U.S. role should 
be to engage with China to see if resettlement, at least on a modest 
scale, can become a legal option for North Koreans in China. The 
Administration should also be talking to the South Koreans about 
increasing their economic and political commitment to resettlement. The 
United States itself could be a resettlement destination. The U.S. 
experience with resettling previously isolated and difficult to 
assimilate populations, such as the Hmong from Laos, might be usefully 
applied to North Koreans, both by accepting them here and by providing 
technical training and support to South Korean government agencies and 
NGOs involved in resettlement. Finally, North Koreans, through the 
underground railway, have managed to reach countries as far away as 
Thailand and Cambodia. American embassy staff in Southeast Asian 
countries should be on the lookout for North Korean asylum seekers and 
be prepared to consider them for possible resettlement in the United 
States.
    RI has struggled with the issue of who exactly can be an effective 
interlocutor with the Chinese on the changes they need to make to 
protect North Koreans in China. Anyone who has worked on human rights 
in China knows that confrontational tactics tend to backfire, and, 
indeed, arrests and deportations clearly spike in response to 
embarrassing public incidents such as embassy takeovers. But quiet 
diplomacy by UNHCR has utterly failed, and there is no evidence that 
the Bush Administration is applying any meaningful pressure, quiet or 
otherwise, on this issue.
    RI urges Members of Congress, especially from the Republican side 
of the aisle, to try to identify senior retired officials who have 
credibility with the Chinese to commit to taking up this issue with 
their Chinese friends. I am thinking of people with the stature of 
Secretary of State Henry Kissinger or retired Ambassadors. If the 
Chinese authorities hear consistent messages of concern about the 
plight of North Koreans in China from people they trust, perhaps the 
government will be moved to adopt at least the minimalist protection 
strategy of quietly halting arrests and deportations.
                                 ______
                                 

                Prepared Statement of Suzanne Scholte\1\

                             april 19, 2004
    Thank you to Chris Billing and the Congressional-Executive 
Commission on China for arranging this panel discussion. I am honored 
to participate with these distinguished guests, Sang Hun Kim and Joel 
Charny, to discuss the plight of North Korean refugees in China.
---------------------------------------------------------------------------
    \1\ Suzanne Scholte is President of the Defense Forum Foundation 
and Chairman of North Korea Freedom Day being sponsored by the North 
Korea Freedom Coalition. She is also a Founding Board Member of the 
U.S. Committee for Human Rights in North Korea and a Founding Member 
and Advisor of the North Korea Freedom Coalition. DFF is the U.S. 
partner of the Citizens Alliance for North Korean Human Rights and the 
Society to Help Returnees to North Korea. In addition to raising 
awareness of the human rights issues in North Korea, DFF has also 
established the Sin U Nam Fund in which 100 percent of the donations 
are used to rescue refugees and provide support to NGOs sheltering 
refugees.
---------------------------------------------------------------------------
    One of the most avoidable and despicable tragedies of our time is 
occurring today in China as hundreds of thousands of starving North 
Korean men, women, and children have fled their homeland and crossed 
the border into China to try to survive. The famine which began in the 
mid-1990s has led to the deaths of over 3 million North Koreans.
    The estimate of the number of North Korean refugees in China ranges 
between 50,000 to 350,000. Part of the problem in getting a more 
precise number is that the People's Republic of China will not allow 
access to this region, and even denies access to the U.N. High 
Commissioner for Refugees in clear violation of the international 
treaties it has signed. Hence, information about the situation must 
come from those who risk being jailed by China to help these refugees, 
mostly people of deep religious conviction including Christian and 
Buddhist organizations.
    The policy of the PRC is inhumane and should be condemned by all 
nations. In essence, we have a situation where a government is 
terrorizing starving, helpless refugees but also terrorizing 
humanitarian workers who are simply in China to feed and shelter these 
refugees.
    Please understand that I fully acknowledge China's right to protect 
its borders and concern about the flood of refugees, but you have a 
wealth of humanitarian organizations who wish to alleviate this 
problem. In fact, two years ago we got letters of commitment from 12 
humanitarian organizations who wished to help establish a refugee camp 
to help relieve China of any burden for these refugees. There are many 
organizations like Action Against Hunger and Doctors Without Borders 
that have left North Korea in protest of the government's diversion of 
their humanitarian aid, that would be more than willing to assist these 
North Koreans wherever they are.
    There have been instances where the Chinese authorities did allow 
North Koreans to leave. Two families we were trying to help, the Han 
Mee Family in 2002 and a more recent example, the Zheng family in 
March, 2004, were allowed safe passage to South Korea via a third 
country. However, these are the rare exceptions, and every week between 
100 to 200 North Koreans are repatriated.\2\
---------------------------------------------------------------------------
    \2\ The Commission to Help North Korean Refugees and Helping Hands 
Korea.
---------------------------------------------------------------------------
    China defends the repatriations by claiming that the refugees are 
``economic migrants'' yet as soon as a North Korean crosses the border 
they immediately fit the definition of a political asylum seeker 
because it is a crime against the State for a North Korean to leave the 
country. I submit this paper written by Tarik Radwan, an attorney with 
Jubilee Campaign, which outlines the violations China is committing 
against North Korean refugees.
    We know from eyewitness testimony that when North Koreans are 
repatriated they are subjected to harsh sentences, in some cases they 
are executed, especially if they have converted to Christianity. Since 
many Christians are willing to risk themselves to help these refugees, 
it is very common to hear of North Korean defectors converting to 
Christianity. Some, in fact, go back to North Korea to preach the 
gospel, which as you well know, is another crime against the state in 
North Korea, because Kim Jong-il considers Christianity to be the 
biggest threat to his God-head.
    We know pregnant women who are repatriated are forced to undergo 
abortions. If the babies are born alive, they are suffocated, murdered 
on the spot. The crime that the baby committed is two-fold: he may have 
been the child of a Chinese man and he shares his mother's guilt for 
the crime she committed of leaving the country.\3\
---------------------------------------------------------------------------
    \3\ In North Korea, three generations of one's family is jailed if 
a family is accused of a so-called crime.
---------------------------------------------------------------------------
    Now, in addition to repatriating North Koreans, China penalizes its 
citizens for trying to help North Korean refugees, and rewards them for 
turning them in--a double incentive. It also works aggressively with 
North Korean agents to catch and jail humanitarian workers. In fact, 
the North Korean government offered an incentive to catch Hiroshi Kato 
of Life Funds for North Korean Refugees: 440,000 yen and a brand new 
Mercedes Benz. Kato was in fact caught in November 2002, and jailed, 
but fortunately the Japanese government stood up for him and he was 
released after less than a week in detention.
    However, today there are at least 10 humanitarian workers in 
Chinese jails--10 that we know of. Since they must work clandestinely 
to try to save people's lives, there may be many others.
    Just to give you an example of these ``lawbeakers'' that China has 
in jail, let me describe just two of them--Rev. Dong Shik Kim who 
disappeared on January 16, 2000, and Takayuki Noguchi who was seized on 
December 10, 2003.
    Rev. Kim is a devout Christian who felt a special compassion for 
the handicapped, poor and oppressed because he had himself been 
handicapped after a car accident in 1986. Working in China since 1988, 
he became well aware of the suffering of the North Korean people and 
organized five shipments of humanitarian aid to North Korea. He and his 
wife helped North Korean athletes go to compete in the 1996 Olympic 
Games. He was helping shelter refugees in China when on January 16, 
2000, he was visited by three men who told them they wanted to take him 
to see a North Korean refugee couple who needed help. He served the 
three men lunch, and then the three men took Rev. Kim away and he has 
not been seen since.
    Noguchi of Life Funds for North Korean Refugees was seized on 
December 10 with two Japanese born North Korean refugees. Noguchi is a 
32-year-old humanitarian worker whose devotion to helping others led 
him to become involved in trying to rescue North Korean refugees. At 
the time he was caught, he was trying to help two Japanese born 
refugees return to Japan.\4\ Noguchi is in jail today being held by 
Chinese authorities for the crime of ``illegally transporting people to 
cross the border.''
---------------------------------------------------------------------------
    \4\ They had been part of the 93,000 Japanese born North Koreans 
who were lured back to North Korea during the years 1959-1984 to help 
build the great socialist paradise of North Korea.
---------------------------------------------------------------------------
    Regarding the repatriations, we know of incidences where North 
Korean defectors have been murdered by Chinese border guards and North 
Korean agents. On May 28, 2002, North Korean agents beat to death Sohn 
In Kuk, a 40-year-old refugee who had fled North Korea after his entire 
family had starved to death. His crime was ``crossing the border'' too 
many times. Last week, according to Durihana Missionary Foundation, a 
Chinese border guard shot a North Korean defector who was with a group 
of at least 17 who were trying to make it to Mongolia.
    This is the policy of China, which regards itself as a world 
leader, yet is committing one of the most despicable crimes against 
humanity in the world today.
    Over the years, field surveys conducted by human rights 
organizations\5\ documented that over 50 percent of North Korean women 
have been subjected to human trafficking, sold as wives to Chinese 
farmers, sold as sex slaves to brothels, and sexually exploited. These 
statistics are now believed to be much higher, because now it is not 
just Chinese that are selling North Korean women and young girls but 
even desperate North Koreans are selling their own citizens.
---------------------------------------------------------------------------
    \5\ Good Friends and the Citizens Alliance for North Korean Human 
Rights.
---------------------------------------------------------------------------
    Tim Peters of Helping Hands Korea believes that at least 70 percent 
and possibly 90 percent of North Korean refugee females have been 
victimized by trafficking. He described one such victim, Kim Mi-Soon. 
Kim's parents died and she was left to fend for herself until a woman 
from a nearby town offered to take Kim to China to live with her 
relatives. She went gratefully. It was not until she reached China that 
she discovered the deception: the woman sold her to a Chinese man. She 
was sexually abused, beaten and treated like a piece of property.
    Despite the abuse, Kim considers herself very fortunate, because 
she will tell you: ``I was only sold once. Most of the teenage girls 
from my home town, 15 and 16 year olds have been sold three and four 
times as sex slaves.'' Many of these young women are terrified to come 
forward to tell their stories because of the stigma that they have to 
live with for the abuse they endured.
    Hae Nam Ji is another example. She decided to flee North Korea 
after she served time in a political prison camp for the ``crime'' of 
singing a South Korean song. Ji describes the several times she was 
sold. In one case the man who bought her was afraid she would try to 
escape while he was at work, so he took her to the factory where she 
was treated like an animal in a zoo, stared at and sexually molested by 
the man's co-workers.
    Despite these horror stories, North Koreans keep fleeing to China. 
Time and time again, we hear the same story from them: ``we would 
rather die than go back to North Korea.''
    Recently, over hundred North Korean defectors went on a hunger 
strike at the Tumen Facility in China to protest their pending 
repatriation. Tumen is considered the last stop for North Koreans about 
to be repatriated.
    Having worked on this issue for some time and despite these horror 
stories, I am becoming encouraged by developments as more and more 
people and organizations raise their voices on this issue. As you know, 
the UN Commission on Human Rights passed a resolution last week 
regarding the horrible human rights situation in North Korea that 
called for the appointment of a Special Rapporteur.
    Furthermore, Senators Sam Brownback and Evan Bayh, and Congressmen 
Jim Leach and Eni Faleomavaega have introduced the North Korea Freedom 
and the North Korea Human Rights Act in the U.S. Congress. Next week, 
the North Korea Freedom Coalition will host North Korea Freedom Day 
which includes a major rally on Capitol Hill and a day long series of 
events to promote North Korean human rights and freedom.
    In conclusion, I feel we must apply worldwide pressure on China to 
stop the repatriations of North Korean refugees and allow the UNHCR and 
humanitarian organizations access to these refugees and the ability to 
set up refugee camps.
    We should also pressure the Olympic Committee to change their venue 
for the 2008 Olympics unless China stop's its inhumane policy. It would 
be an enormously tragic farce to have the Olympic Games, which 
celebrate good will among neighbors, to be held in a country which is 
murdering and terrorizing its neighbors for their crime of coming to 
them for help.
    Our country should also use its economic leverage with China to 
stop these atrocities. We know that we cannot appeal to China on morale 
grounds, but they do seem to respond to economic pressure. If our 
governments are not willing to help, than as individuals we should 
consider our own economic boycott of Chinese products.
    I conclude with a plea to: ``Rescue those being led away to death; 
hold back those staggering toward slaughter. If you say, we knew 
nothing about this, does not he who weighs the heart perceive it? Does 
not he who guards your life know it? Will he not repay each person 
according to what he has done.'' \6\ Thank you.
---------------------------------------------------------------------------
    \6\ Proverbs 24: 11-12.
---------------------------------------------------------------------------
                                 ______
                                 

                   Prepared Statement of Kim Sang Hun

                             april 19, 2004
    Chairperson, Ladies and Gentlemen:
    I am deeply honored with this opportunity to speak to you today 
about a matter that involves the plight not just of North Korean 
refugees, but of the aid workers, like some of us here in this room, 
that commit their lives to helping them.
    At the same time I wish to take this opportunity to express my deep 
appreciation and respect to the great American people, who are the hope 
and leaders of the world today for democracy and human dignity.
    In the past 10 years, many North Koreans naturally have defected 
from North Korea to China in search of food and freedom. By every 
measure, they are unquestionably eligible for refugee status under the 
U.N.'s 1951 Geneva Convention Relating to the Status of Refugees 
(attachment No. 1).
    Until 1998, Chinese authorities stated untruthfully that they had 
not been arresting and forcibly repatriating North Korean refugees. 
When shown evidence of such arrests and repatriations (attachment No. 
2), the Chinese authorities then confessed, but in December 1999 
falsely assured the world that North Korean defectors would not be 
punished when they are returned to North Korea. When shown ample 
evidence and testimonies to the contrary (attachment No. 3), the 
Chinese authorities again constructed a new ``party line'' that North 
Korean refugees are ``economic 
migrants'' (please refer to attachment No. 4) or ``illegal immigrants'' 
(please refer to the attached questions) and, therefore, are not 
refugees. What is more grave by far is the Chinese Government's 
continued callousness in systematically returning the refugees to North 
Korea and to a fate of detention, discrimination and even summary 
execution.
    Over the years human rights NGOs, international organizations and 
foreign governments have lodged a number of formal appeals and posed 
legal questions to the Chinese Government of China on the issue of 
North Korean refugees in China.
    Despite such repeated expressions of grave concern, China has, in 
effect, employed a strategy of silence that simply ignores such 
appeals, thus often choosing not even to respond. By its years of stony 
silence and uninterrupted flouting of human rights treaties, China has 
been successful in conveying the message: ``Who do you think you are, 
you insignificant NGOs? I said `No' and that means `No!' Keep your 
mouths shut! '' At this arrogance by the Chinese government, the world 
community has 
remained powerless.
    This is clearly a case of Chinese arrogance and defiance of the 
international community's accepted rule of law and of the principles of 
humanitarianism, not a simple case of a difference of opinion. My 
question today is ``How long will the international community tolerate 
such defiance? '' I am of the deep conviction that we must challenge 
Chinese arrogance once and for all. The continued turning of a blind 
eye by the international community to China's contempt for 
humanitarianism today can only serve to incubate the aspiring Hitlers, 
Stalins and Kim Jong-ils of tomorrow.
    With your permission, I wish also to draw your attention to a 
separate humanitarian disaster, again related to North Korean refugees, 
and equally as grave.
    On 12 December 2001 at the ministerial meeting in Geneva of states 
parties to the 1951 Geneva Convention, Mr. Wang Guangya, then Vice 
Foreign Minister of the People's Republic of China, heralded the Geneva 
Convention and declared that the Convention ``serves as a guide to 
action to people who are engaged in humanitarian work of protecting and 
assisting refugees . . .'' In reality, however, the Chinese authorities 
have been arresting and indefinitely detaining humanitarian aid workers 
for simply ``protecting'' and ``assisting'' refugees. It goes without 
saying that this is typical Chinese hypocrisy.
    For me, this happens to be a very personal matter, for my friend 
and colleague, Kim Hee-tae, has been arbitrarily locked up in a Chinese 
prison for almost two years without court verdict.
    Imagine, if you will, a young man, an idealist whose only crime is 
his sense of responsibility to help people in need. Kim Hee-tae is such 
a person.
    Notwithstanding my personal interest in his plight, Kim Hee-tae's 
situation provides an illustrative case study from which we can all 
learn.
    Kim Hee-tae's detention is illegal first and foremost because he 
didn't commit the crime for which he was charged: ``organizing an 
illegal border crossing'' (Chinese criminal code Article 318). He did 
not partake in organizing or otherwise assisting any North Korean 
refugees in crossing the border into or out of China (unless you 
consider foreign embassies to be a border). Kim Hee-tae merely 
``assisted'' North Korean refugees inside China. It is only in China 
where assisting refugees constitutes a crime.
    Japanese aid workers, Mr. H. Kato and Professor F. Yamada, were 
also once 
arrested in China for the exactly same charge levied against the South 
Korean humanitarian aid workers. For Japanese aid workers, it was 7 
days or 21 days. For South Korean aid workers, it has been over two 
years in case of Rev. Choi Bong-il and almost two years in case of Mr. 
Kim Hee-tae without court verdicts. While the people and government of 
South Korea are shamefully allowing their countrymen to rot in jail, 
the Japanese government and citizens, their NGO and numerous colleagues 
came to their rescue and took a firm stance in dealing with China. Mr. 
Takayoshi Noguchi, the Japanese humanitarian aid worker now imprisoned 
in China for over three months, is waging a solitary and heroic 
struggle in Chinese prison to resist release in his bid for demanding 
non-refoulement of the two North Korean refugees he was helping.
    Rev. Choi Bong-il! Mr. Kim Hee-tae! Mr. Choi Yong-hun! Mr. O Yong-
pi! and Mr. Noguchi Takayoshi!
    Today, there are at least five humanitarian workers, including one 
Japanese, held in Chinese prisons for assisting North Korean refugees. 
I can only speculate as to why my countrymen and government have sold-
out their compatriots. Blame ignorance, political agendas or a general 
desire to avoid all matters North Korean; whatever the reason, it's no 
excuse. In the meantime, our friends and colleagues remain languishing 
behind bars. Today, I am making a special appeal to the American 
leaders for help.
    The Chinese Government has proven itself deaf to appeals for 
humanitarian consideration or pleas for mercy. Traditionally, China 
follows the pattern of being submissive to the stronger, but showing no 
mercy to the weaker. For example, North Korean defectors who gain 
entrance to foreign embassies are permitted to leave China--foreigners 
are strong. The same defectors are arrested if found on the streets--
North Korean refugees are weak.
    The lesson to be learned here is that China responds only to a 
strong show of force. It is urged that appeals for humanitarian 
considerations or quiet diplomacy be discontinued in favor of protest 
in the strongest possible terms, with determination and persistence, in 
dealing with the Chinese government. It is recommended, as a first 
step, that the government of China is urged, not appealed, to answer 
the attached questions; questions that have been put before them for 
years and that they have bluntly ignored. I am afraid I do not have 
time to read the list of questions now, but I wish to leave them in the 
record (attachment No. 5).
    Furthermore, UNHCR, which should be leading the charge on behalf of 
these refugees, prefers instead to kowtow to the Chinese Government and 
not make waves. I wish to take this opportunity to ask UNHCR why it has 
failed to protect he refugees from being forcibly repatriated by the 
Chinese, when it could by initiating the binding arbitration clause in 
the agreement between it and the Chinese Government.
    In closing, I am baffled as to why China chooses to be on the wrong 
side of history by supporting such a regime, a North Korean version of 
the Shanghai Gang of Four that wreaked havoc during Cultural Revolution 
in China. I simply cannot understand why China is making itself an 
accomplice to North Korean crimes against humanity, especially when 
China must know that these crimes will soon be exposed for the world to 
see.
    Thank you.

                            Attachment No. 1

                  north korean defectors are refugees
    The question of refugee status is unquestionably an international 
and global issue to be governed by relevant international laws (1951 
Convention Relating to the Status of Refugees and 1967 Protocol 
thereto) and therefore not to be defined by any particular national 
laws or political consideration. The above 1951 Convention was heralded 
by China as ``. . . Magna Carta of International Refugee Law . . . The 
Convention is candle light of hope in the dark to the helpless refugees 
. . . serves as a guide to action to people who are engaged in 
humanitarian work of protecting and assisting refugees.'' (Mr. Wang 
Guangya, Vice Foreign Minister of the PRC, at the Ministerial Meeting 
of States Parties to the 1951 Convention Relating to the Status of 
Refugees in Geneva on 12 December 2001).
    Furthermore, international instruments prevail in the event of 
conflict between the obligations of the Members of the United Nations 
under the UN Charter and their obligations under any other 
international agreement (UN Charter, Article 103) or any national law 
(1951 Convention, Article 8 and Article 40,1).
    Indeed, the Government of China has accepted that ``an 
international human rights agreement . . . is binding under Chinese law 
and China must honour the corresponding obligations. . . . In the event 
of discrepancies between domestic law and an international human rights 
agreement . . . the international agreement will take precedence . . . 
(Report of China--HRI/CORE/1/Add.21/Rev.2, 11 June 2001).
    It is further noted that Mr. QIAO Zonghuai, a member of the 
delegation of China, stated at the 24th CAT session in Geneva on 
Friday, 5 May 2000, ``China adhered to the principle of pacta sunt 
servanda. Under the Chinese legal system, the international instruments 
. . . were considered part of Chinese law and legally binding. In the 
event of conflict between an international instrument and a domestic 
law, the provisions of the international instrument took precedence. . 
. .'' (CAT/C/SR 419, 12 May 2000).
    The Chinese government indisputably contradicts itself when it 
arbitrarily applies its national law to a clearly international issue 
in cases where the government has carried out severe crackdowns on both 
North Korean refugees and aid workers that assist them. The Chinese 
government is clearly obliged to justify its decision against the 
granting of refugee status to North Koreans by its declaration of 
Chinese national law as justification for the repatriation of North 
Korean defectors.
    Under the circumstances, we strongly feel that the government of 
China must be condemned for its violation of international law and 
continuing defiance of the international community by continuing the 
severe crackdowns on North Korean defectors and those aid workers 
assisting them.
    We believe that North Korean defectors in hiding in China today are 
eligible to the refugee status under customary international laws for 
the following reasons:
I. The definition of a ``refugee'' is universal and has been agreed 
        upon by a majority of U.N. members through international 
        instruments.
    A. The 1951 Convention Relating to the Status of Refugees, Article 
1, Paragraph 1 (a), and the 1967 Protocol Relating to the Status of 
Refugees, Article 1, Paragraph define a refugee to be someone:

          (a) With ``well-founded fear of being persecuted for reasons 
        of race, religion, nationality, membership of a particular 
        social group or political opinions'' and,
          (b) ``Unable or unwilling to avail himself of the protection 
        of that country'' or ``outside the country of his former 
        habitual residence and unable or unwilling to return to it.''

    B. 137 nations have acceded to both the 1951 Convention and the 
1967 Protocol.
II. North Korean defectors in China satisfy the requirements of the 
        universal definition and should be eligible for refugee status.
    A. North Koreans defect to China in pursuit of food and freedom and 
in defiance of the political authorities of North Korea. In other 
words, they are staking a claim to the fundamental and inalienable 
rights of life and liberty.
    B. North Korean defectors in China are not ``economic migrants.'' A 
migrant enjoys the protection of his or her home government; a refugee 
does not. When they defect to China, they are outside of North Korea 
and do not expect to avail themselves of its protection.
    C. Under the North Korean Criminal Code, Article 47th, defectors 
are considered political prisoners and punishable by capital punishment 
or a minimum prison term of seven years. Therefore, the defectors, when 
arrested and unconditionally repatriated to North Korea by the Chinese 
authorities, have a ``well-founded fear of being persecuted,'' often 
very severely.
III. China's treatment of North Koreans in China is a defiance of 
        International agreements and a dereliction of its obligations 
        as a UN member.
    A. The People's Republic of China acceded to both the 1951 
Convention and the 1967 Protocol on September 24, 1982.
    B. The Chinese authorities are clearly violating the non-expulsion 
(refoulement) principle of the 1951 Convention, Article 33 (Article 1, 
Paragraph 1, of the 1967 Protocol) when they expel or return 
(``refouler'') the North Korean defectors in any manner whatsoever to 
the frontiers of territories where their lives or freedom would be 
threatened.
    C. Any provisions in Chinese national law or any extradition treaty 
between China and North Korea allowing North Korean defectors to be 
arrested and repatriated is in direct conflict with the 1951 Convention 
and the obligations assumed by all U.N. members, including China, 
regarding the universal respect of human rights and fundamental 
freedoms described in the U.N. Charter, Articles 2 (Paragraph 2), 55 
(Paragraph c), 56, and 103; 1951 Convention Article 8 and Article 40, 
1).
    D. By repatriating defectors back to North Korea, the government of 
China is making itself a party to North Korean crimes against humanity.
IV. It is in China's best interest to uphold its international 
        obligations and treat North Korean defectors in China as 
        refugees.
    A. By allowing international organizations to help the defectors on 
humanitarian grounds, China will help prevent human suffering and 
persecution on a massive scale.
    B. With a growing international focus on China due to trade and 
business issues, China must be cautious to present itself in the best 
light. By upholding its international obligations to being not only a 
conscientious participant in the world community but also a proactive 
leader.
    C. By allowing international organizations to help the defectors, 
China can reduce its own burden and costs associated with the North 
Korean defector population (e.g., welfare, police, security, 
repatriation, etc.)

                            Attachment No. 2

                                                  23 December 1998.
Your Excellency, Mr. Jiang Zemin,
President, People's Republic of China,
Beijing, China
    Your Excellency,
    We are a group of Japanese citizens who, on humanitarian grounds, 
have been trying to help North Korean defectors hiding in China. We are 
non-governmental and are not affiliated with any political parties or 
religion.
    I wish to most respectfully bring to your kind attention that a 
total of 230 North Korean defectors hiding in three cities in the Jilin 
Province in China were arrested and forcibly repatriated to North Korea 
by the Chinese authorities in defiance of international law as follows:

    Wangching City--Police searches began in the evening of July 17, 
1998 and lasted until the dawn of July 18th. A total of 76 North Korean 
defectors were arrested. They were boarded on a truck and repatriated 
in the morning of July 18, 1998.
    Huhryong City--Police searches began in the evening of July 19, 
1998 and lasted until dawn of the next morning. A total of 87 North 
Korean defectors were arrested. They were placed in two buses and 
repatriated to North Korea in the evening of July 20, 1998.
    Ryugjin City--A total of 67 North Korean defectors were arrested, 
placed in a truck and forcibly repatriated to North Korea in the early 
August, 1998.
    As indicated in the above, a large number of North Korean defectors 
are hiding in China in constant fear of arrest and hunger. The 
situation over the years has developed to such intensity that your 
Government can no longer feign ignorance of the reality of human 
suffering that is taking place in Northeast China on a massive scale.
    In this context, we wish to indicate to your Excellency that:

    1. The North Korean defectors risked their lives when they fled 
North Korea for food and freedom, a ``political opinion,'' in their 
rightful exercise of fundamental freedoms, and are ``outside the 
country of their nationality.'' Normally, they are not aware of their 
rights as a refugee; and, therefore, they State that they defected from 
North Korea in search of food when they are arrested. They State this 
in an effort to mitigate the severity of punishment awaiting them. 
Clearly, they did not come to China for better employment or economic 
activities. They come to China to save their lives from hunger and 
political repression in North Korea.
    2. They are charged with treason under the North Korean Criminal 
Law, Article 47, and most brutally persecuted and often murdered on 
their return to North Korea for harboring reactionary ``political 
views.'' Thus they have a clear and ``well founded fear of being 
persecuted.'' In recent years, the persecution was somewhat mitigated 
and the defectors are now often released after detention in cells for 
about a week of investigation. But, they are still blacklisted and sent 
to their hometown for surveillance. Policemen, soldiers, high ranking 
government officials and others continue to be severely persecuted when 
they are repatriated. Furthermore, there have been indications that the 
North Korean government has recently resumed its traditional severe 
persecution as the number of defectors have increased.
    3. They are not to be confused with the large number of border 
traffickers between China and North Korea who are not persecuted. We do 
not refer to the traders. Instead, Mr. President, we appeal on behalf 
of very ordinary people.
    4. If the repatriated North Koreans are criminals, as your 
government alleges, we respectfully demand that your government and the 
Chinese people disclose the names and the criminal records of those 
North Koreans who have been repatriated over the years. This will 
facilitate an international search to be organized to trace the 
whereabouts and fate of the repatriated North Koreans.

    In this context, we wish to bring to your attention the resolutions 
adopted in 1997 and 1998 by a sub-commission of the U.N. Commission on 
Human Rights. The U.N. resolutions, in recognition of the situations 
involving North Korean defectors, urgently calls on North Korea to 
ensure full respect for the right of everyone to leave any country.
    Under the circumstances, we believe that these ordinary people in 
search of food and freedom clearly meet the conditions of refugee 
eligibility under Article 1, Para. 1 (a), ``Convention Relating to the 
Status of Refugees.'' Therefore, we believe that it is incumbent upon 
the People's Republic of China to provide international protection to 
them and find durable solutions to their problems.
    We wish to indicate that many lives are at stake, dangling 
helplessly between life and death even at this moment. Please consider 
the plight of so many people and urgently take the necessary steps to 
help them in China.
            Sincerely yours,
                               Nakadahira Kenkichi,
       Representative, Life Funds for North Korean Refugees
                                                      Tokyo, Japan.

                            Attachment No. 3

  the following statement is based on interviews with over 200 north 
korean defectors during the period 1996-2002 by an international group 
    of human rights volunteers of 7 nationalities. accordingly, the 
  credibility of the statement has never been challenged to this date.

 ``Well-Founded Fear of Persecution for Reason of Political Opinions''

North Korean Criminal Code, Article 47: ``A citizen of the Republic 
shall be charged with treason and sentenced to hard labor in prison for 
a minimum term of seven years for defecting to another country or to an 
enemy in betrayal of the fatherland and the Korean people such as 
spying or assisting the enemy. He shall be sentenced to death and all 
his property confiscated if the case is serious.''

The 1951 Convention Relating to the Status of Refugees, Article 1, A. 
(2): ``.  .  .with well-founded fear of being persecuted for reasons of 
race, religion, nationality, membership of a particular social group or 
political opinions, . . .''
                              introduction
    Many North Koreans have risked their lives fleeing to China for 
freedom from starvation or destitution. Nevertheless, they are arrested 
in China and forcibly sent back to North Korea where they face severe 
persecution. It must be underlined that the defectors, in reality, 
commit themselves to the political opinion for ``freedom'' and ``right 
to life'' when they defy the North Korean authorities by defecting to 
China.
                      state security agency (ssa)
    Upon arrival in North Korea, SSA first interrogates the defectors. 
Such intervention by the SSA is an indication that defectors are 
perceived and treated as potential political prisoners. The defectors 
repatriated from China are almost always strip-searched by North Korean 
officials for hidden money, an extremely humiliating process. The SSA 
officers put fingers into anus and also into vagina in case of woman, 
sometimes by men. Often, they are forced to repeat ``sit and up'' 
motion many times until hidden money falls from anus or vagina.
    During interrogations and detention, the prisoners are invariably 
subjected to very brutal treatment. Beatings with large sticks or iron 
bars, kicking and punching are routine and the level of atrocity varies 
according to the number of prisoners to be interrogated at any given 
time. For example, prisoner beatings were reported to be very severe 
and the period of detention was between four to six months between 
1994-7 when the number of repatriated defectors was comparatively 
small. Degrading treatment somewhat diminished in intensity between 
1998-9 and the period of detention was also comparatively shorter, for 
example, one week to three months when the number of detainees 
increased. Particularly atrocious beatings were reinstated during 1999-
2000. Many defectors reported fewer beatings in North Korean detention 
facilities in 2001. Some defectors now allege that severe beatings have 
once again revived in recent months.
    Thus, the length of detention at SSA varies from a minimum of a 
week to many months depending on the number of prisoners waiting for 
questioning. The actual interrogation is greatly feared, as defectors 
are subjected to repeated and insistent SSA accusations that they have 
met South Koreans or have been to churches while they were in China. 
Interrogations are, almost without exception, accompanied by severe 
beatings and various forms of cruel treatment. For example, one such 
form of cruel treatment is being handcuffed behind the back, then being 
hung by the arms from an iron bar overhead, often resulting in an 
excruciating dislocation of the shoulders or breaking of the arms. Some 
prisoners, who finally submit to SSA accusations and confess under 
torture or are found to be guilty of other ``political'' crimes, simply 
disappear. Fellow prisoners believe that the ``guilty'' are secretly 
executed or sent to concentration camps to serve out life sentences in 
prison.
                    provincial police detention camp
    If a defector is deemed not to be guilty of serious political 
crime, the North Korean criminal systems require the prisoner to be 
returned to their hometown or district for police interrogation that 
leads to a final decision regarding the need for surveillance following 
release. They are first sent to a detention camp run by the provincial 
police to await policemen from their respective hometown to claim them. 
The very poor state of transportation in North Korea combined with 
meager budgetary provisions make travel to the provincial police 
detention camp by local police extremely difficult. Prisoners are 
usually detained for many months, often more than 6 months, before 
being picked up by the police from their hometowns. The detention at 
the provincial police camp is characterized by the provision of little 
food, severe discipline and hard work. Again beatings with large sticks 
or iron bars, kicking and punching are routine. Mortality rate during 
the detention is very high, estimated at a minimum of 10 percent even 
though some allegations claim up to 30 to 50 percent.
                        hometown police station
    At the hometown police station, prisoners endure the same severe 
round of interrogations before release. It is not uncommon for 
prisoners to be punished and sent to a labor camp for a period of from 
a few weeks to several months, depending on the number of prisoners to 
be handled. Incredibly hard work, poor meals, extremely poor sanitary 
conditions and degrading treatment result in a high mortality rate.
                 general conditions of detention camps
    The physical conditions of detention camps at all levels are such 
that imprisonment itself is torturous. The facilities are almost always 
dilapidated and run down (with the exception of the Shinuiju SSA 
detention camp which was newly 
constructed in 2000) and are typically infested with a variety of 
insects which bothers prisoners day and night. Degrading treatment and 
extremely poor sanitation conditions produce such misery that prisoners 
do their best never to recall these 
experiences.
    For example, the North Pyongan Provincial Police Detention Camp, 
situated on the outskirts of Sinuiju, is believed by many prisoners to 
have been used by the Chinese as an army ammunition depot during the 
Korean War, 1950 to 1953. Later, it was used as a training kennel for 
military dogs. The well located at the center of the North Hamkyong 
Provincial Police Detention Camp, situated in Chongjin, is so severely 
contaminated that virtually every thirsty prisoner attempting to quench 
his/her thirst there contracts severe diarrhea coupled with burnt and 
swollen lips.
                               conclusion
    The total length of detention at all levels varies from the minimum 
of one month to over a year if one is found without serious political 
crimes. Many defectors, formerly senior party members, army officers, 
intellectuals and students, simply disappear during the process. Many 
North Koreans who endured such a nightmare often express that they 
prefer death to repeating the ordeal. The frequent reports of suicide 
committed by North Koreans during the repatriation process supports the 
description of shocking and hideous persecution they must suffer before 
release, for the fortunate ones. The entire detention process, from 
arrival in North Korea to final release in the prisoner's hometown, 
normally stretches from one month to over a year. There are commonly 
reported cases of trials and resulting prison terms of 10 to 15 years.
    Therefore, all North Koreans who are arrested by Chinese security 
officials and repatriated to North Korea have an undeniable and 
confirmed ``fear of persecution.''

                            Attachment No. 4

                  Economic Migrants Are Also Refugees!

    North Korean defectors in China have risked their lives fleeing 
from their homes to escape starvation, destitution and political 
oppression in pursuit of food and freedom. Obviously, the very act of 
defection itself is a dramatic expression of their 
political views, an angry defiance of the political authorities of 
North Korea who systematically starve them. Nevertheless, they State 
that they have fled to China for food. They declare plainly their need 
to beg for food and sympathy, but of equal importance, as a means of 
mitigating their punishment in the event of forced repatriation to 
North Korea. The government of China takes advantage of North Koreans' 
beggary and cynically denies them refugee status under the pretext that 
they are ``economic migrants.''
    The Agreement between China and UNHCR signed at Geneva on 1 
December 1995, Article III, reads: ``Cooperation between the government 
and UNHCR in the field of international protection of and humanitarian 
assistance to refugees shall be carried out on the basis of the Statute 
of UNHCR, other relevant decisions and resolutions adopted by United 
Nations, Article 35 of the Convention Relating to the 
Status of Refugees of 1951 and Article 2 of the Protocol Relating to 
the Status of Refugees of 1987.''
    In this context, it must be noted that the Sub-Commission on the 
Promotion and Protection of Human Rights adopted a resolution at its 
22nd Meeting on 14 August, 2002, which reads in part, ``. . . persons 
who have risked their lives fleeing from their homes to escape 
persecution and by other factors such as starvation or destitution . . 
. should be protected in accordance with . . . the 1951 Convention 
relating to the Status of Refugees and its 1967 Protocol.
    Therefore, China's denial of refugee status to North Koreans on the 
pretext of economic migrancy can, in no way, be justified on the basis 
of the above agreement and U.N. resolution.
    Copies of the Agreement and the U.N. resolution will be made 
available upon request.
    Prepared by: Sang Hun Kim, International Human Rights Voluntary 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cdbe3fee7e9fea1a1ebf9f5ebe9e3ccffe3eaf8ebfeede1a2efe3e1">[email&#160;protected]</a>

                            Attachment No. 5

                             Our Questions

    We demand that the Chinese Government explain and clarify the 
following questions that are crucially relevant to its international 
obligations:
Is the status of North Korean defectors in China subject to 
        international law or national law?
    The question of refugee status is an international issue and 
therefore should be governed by relevant international laws (i.e., the 
1951 Geneva Convention Relating to the Status of Refugees and the 1967 
Protocol thereto) and not to be determined by Chinese national law or 
any political or economic considerations.
    Furthermore, the Chinese Government has accepted that ``an 
international human rights agreement . . . is binding under Chinese law 
and China must honour the corresponding obligations. . . . In the event 
of discrepancies between domestic law and an international human rights 
agreement . . . the international agreement will take precedence'' 
(Report of China--HRI/CORE/1/Add.21/Rev.2, 11 June 2001).
Please explain on what basis the defectors are denied the right even to 
        substantiate their claims as refugees.
    Very regrettably, the Chinese Government is applying national law 
to an international issue that should be governed by customary 
international law. Accordingly, if the Chinese Government punishes the 
defectors under its national law, it must first explain why the 
defectors are not eligible for refugee status under customary 
international law. Arresting defectors without this explanation and 
without granting them the benefit of fair and efficient asylum 
procedures makes the Chinese Government's decision appear highly 
arbitrary, and defiant of human rights principles and international 
justice. In the name of fundamental human rights and humanity, the 
international community has the right to know that the Chinese 
Government first publicly articulate why the defectors in question have 
not been found eligible for refugee status.
Can the Chinese Government justifiably charge the defectors with 
        ``Illegal Entry? ''
    Without fair and efficient asylum procedures, the Chinese 
authorities arbitrarily charge all the defectors with ``illegal entry'' 
for their presence in China. It must be recognized that this is in 
violation of the 1951 Convention, Article 31, which prohibits the 
Contracting States from imposing ``penalties, on account of their 
illegal entry or presence, on refugees.'' Illegal entry, therefore, 
does not preclude defectors from being the refugees they claim to be. 
All individuals who commit desperate acts, such as illegal entry, 
should be granted the opportunity to substantiate their claims in 
accordance with the international refugee laws that were established to 
protect them. (Technically, the defectors in question are ``illegal 
border crossers'' at the very outset. In essence, no concept of 
``refugee'' could exist anywhere in the world and no refugee laws could 
be in place if defectors were unconditionally arrested solely based on 
their illegal entry or presence, as it is in China.)
How does the Chinese Government justify punishing aid workers who help 
        ``illegal immigrants'' when they act on humanitarian grounds?
    All governments have the sovereign right to deal with illegal 
immigrants. The Chinese Government punishes not only those it labels 
``illegal immigrants,'' however, but also anyone helping them based on 
humanitarian grounds. Such ill-advised actions are inconsistent with 
the prevailing norm of behavior consistent with international community 
membership. By so doing, isn't the Chinese Government forcing innocent 
citizens and international aid-workers to deny fundamental human rights 
to people in distress? Isn't the Chinese interpretation of humanity at 
odds with that of the rest of the world?
Are the defectors economic migrants or refugees?
    Based on the abundance of information documented and available to 
us, none of the North Korean defectors was in China with the intent to 
pursue business or seek gainful employment. A migrant enjoys the 
protection of his or her home government; a North Korean defector does 
not.
    Moreover, many defectors have been arrested while attempting to 
leave China for a third country. Thus, if the defectors are indeed 
economic migrants pursuing business and/or seeking gainful employment 
in China, why then would they attempt to leave China at the first 
opportunity for a third country that provides far less 
economic opportunity than China (e.g., Mongolia, Myanmar, Laos or 
Vietnam)? Attempts to leave China undermine the Chinese Government's 
``economic migrants'' 
allegation and clearly demonstrate the real purpose seeking freedom.
    One case in point: On January 18, 2003, 48 North Koreans, including 
a group of children, were about to leave China by sea and seek asylum 
either in South Korea or Japan. They were arrested, however, by the 
Chinese security services in Yantai City, Shandong Province. If they 
were indeed economic migrants, why would they attempt to leave China in 
the first place?
Are Chinese laws not the same for everyone?
    North Korean defectors are given humanitarian considerations and 
are allowed to leave China by the Chinese Government if they were in 
the compound of any foreign embassies in China. The same North Koreans 
are brutally treated and returned to North Korea against their will if 
they were found outside foreign embassies. What kind of law enforcement 
is this?
    South Korean humanitarian aid workers have been arbitrarily 
detained, some for more than a year, without a court verdict. Japanese 
aid workers, by comparison, have been held on the same charges, but 
have been released in anywhere from 7-21 days. Are Chinese laws 
different by nationality?

                       Submission for the Record

                              ----------                              


 List of North Korean Refugees and Humanitarian Workers Seized by the 
                          Chinese Authorities

    The following represents a list that the Defense Forum Foundation 
began compiling in 2002 of the names of North Korean refugees and 
humanitarian workers who are known to have been seized by the Chinese 
authorities. There are, of course, thousands and thousands of others 
whose names are unknown to us. This list was compiled in cooperation 
with seven NGOs working to rescue North Korean refugees and was 
reviewed for accuracy by the Seoul-based Citizens Coalition for Human 
Rights of Abductees and the Japan-based Life Funds for North Korean 
Refugees. The list has been periodically submitted to the People's 
Republic of China along with letters requesting release of the 
individuals still in their custody and information about the 
whereabouts of those who have disappeared. It has been read aloud at 
two protest rallies in front of the PRC Embassy in Washington, DC, and 
at a protest rally organized by the Citizens Alliance for North Korean 
Human Rights at the PRC Embassy in Prague, the Czech Republic. The 
humanitarian workers and journalists are listed with an asterisk.
            seized on december 13, 2003 in guangxi province
        Takayuki Noguchi,* male, 32, humanitarian worker with Life 
        Funds for North Korean Refugees seized by Chinese police along 
        with two Japanese-born North Korean refugees, a woman in her 
        40s (born in Tokai Region Japan) and a man in his 50s born in 
        West Japan.
      seized on december 5, 2003 in nanning city, guangxi province
        Chinese authorities seized 36 North Korean refugees hiding in 
        Nanning City, Guangxi Province.
           seized in early september, 2003 in yunnan province
        Yun Jong-Ok, female 37
        Yun Kwang-chol, male 34
        Park (first name not known), female 31
        Lee So-bong, female 54
        Ko Kum-suk, female 34
        Ko Hye-suk, female 32
        Ko I-song, female, 27
        Ko Song-hi, female, 24
        O In-sun, female 20
        Ko Jong-hi, female 40
        O In-chol, male 15
        O Jong-hwa, female 34
        Kim So-hi, female 27
        Sohn Mi-hyang female, 8
        Chung Hye yong, female 26
        Kwak Hyon-chol male, 21
        Kim Kwang-il male 18
        Park, Kum-song, male 18
        Ye, Song-jin, male 20
        Chang Chol, male 19
        Dong Chong-shil male, 19
        Kim Mi-na, female, 16
        Kim Un-hye female 17
        Yu Song, female, 15
      seized on september 5, 2003 in guangzhou, guangdong province
        Woo, Dr. Ri-Chae, a North Korean biologial weapons expert was 
        seized while trying to enter the Australian consulate general 
        ofice in Guangzhou. His wife and children fled when Dr. Woo was 
        seized.
               seized on july 27, 2003 in beijing, china
        These four were arreseted outside a restaurant in Beijing. On 
        the day of their arrest, they had arrived from the city of 
        Yanji by the Tumen-Beijing express train.
        Mr. Lee Kil-wun (64, from the Onsong district, North Korea, 
        coal-mine administrator)
        Mrs. Han Sun-bok (60, wife of Mr. Lee Kil-wun, former high 
        school teacher, from the same district)
        Mr. Lee Song-min (31, son of Mr. Lee and Mrs. Han, worker, from 
        the same district)
        Ms. Kang Myong-ok (35, from the city of Chongjin, North Korea.)
               seized on july 27, 2003 in qingdao, china
        Eight North Korean refugees including four children
      seized on january 18, 2003 in yantai city, shandong province
        Ko Chong Mi (Female, born September 23, 1960 in Japan Osaka 
        Ikunoku Tennoji)
        Lee Yu Son (Female, born September 21, 1982 in DPRK Pyon an Puk 
        Do)
        Kim Son Hee (Female born September 1, 1961 in DPRK Han Gyong 
        Puk Do Kil Ju Gun Yong Buk Ku)
        Pee Okk Ju (Female born February 11, 1988 in DPRK Han Gyong Puk 
        Do)
        Kim Myong Chol (Male born January 28, 1965 in DPRK Han Gyong 
        Puk Do Rajing Jang Pyong Dong)
        Chu Hun Kuk (Male born December 29, 1956 in DPRK Han Gyong Puk 
        Do Kil Ju Gun Yong Buk Ku)
        Kim Yong Ho (Male born December 17, 1969 in DPRK Han Gyong Puk 
        Do Fe Ryong CityYok Chon Dong)
        Kim Kum Ok (Female born March 28, 1960 in DPRK Han Gyong Nam Do 
        Ham Hung Song Chon)
        Sin Younghee (Female born July 14, 1986 in Han Gyong Puk Do 
        Seppyor Gun An Won Li 39)
        Choun Hyang Hwa (Female born July 10, 1983 in DPRK Han Gyong 
        Nam Do Ham Hung Song Chon Kang Yok John Dong 15)
        Kim Un Kum (Female born June 25, 1931 in DPRK Han Gyong Puk Do 
        Myon Chon Kun)
        Be Kwang Myong (Male born January 1, 1986 in DPRK Han Gyong Puk 
        Do Chong Jin Chong am 1-3)
        Park Ran Hee (Female born January 17, 1964 in DPRK Han Gyong 
        Nam Do Ham Hung Yong Song Gu Yoku)
        Lee Kyong Su (Male born Feb. 18, 1968 in DPRK Yang Kang Do He 
        San city)
        Lee Chol Ho (Male born Aug. 28, 1967 in DPRK Han Gyong Puk Do 
        Chong Jin City Chong Jin)
        Lee Chol Nam (Male born Apr. 26, 1969 in DPRK Han Gyong Puk Do 
        Chong Jin City Chong Jin)
        YangYong Ho (Male born March 30, 1961 in DPRK Han Gyong Puk Do 
        mu san gun)
        Yang Gum Soon (Female born Dec. 2, 1987 in DPRK Han Gyong Puk 
        Do mu san gun)
        JangYong Chol (Male born Apr. 20, 1955 in DPRK Han Gyong Puk Do 
        Chong Jin City Chong Jin)
        Kim Young Kwang (Male, 20 years old born in DPRK)
        Choi Yong-hun* (South Korean humanitarian aid worker; sentenced 
        to 5-year imprisonment and a fine of 30,000 RMB on May 22, 
        2003)
        Park Yong-chol* (NK national; sentenced to 2-year imprisonment 
        and a fine of 5,000 RMB on May 22, 2003)
        Park Yong-ho* (Chinese version of ``Piao LONGGAO;'' Korean 
        Chinese national; sentenced to 3-year imprisonment and a fine 
        of 10,000 RMB on May 22, 2003)
        Kim Song-man* (Chinese vesion of ``Jin CHENGWAN;'' Korean 
        Chinese national; sentenced to 1-year imprisonment and a fine 
        of 1,000 RMB)
        seized on november 13, 2002 at the vietnam/china border
        These 17 refugees were seized by Vietnamese border guards and 
        turned over to Chinese authorities. After their arrest they 
        were held in Pingshang, Nanning City, Guangxi Province, China.
        Kim, Ok-ryun (female, 38)
        Kim, Myung-hee (female, 33)
        Choi, Kil-sook (female, 62)
        Kim, Kum-dan (female, 67)
        Hwa Jung (28)
        Lee, Sung-yeol (male, 20)
        Kim, Chul-ho (male, 44)
        Lee, Hwa-jun (male, 35)
        Park, Yoon-sang (male, 54)
        Cho, Kyung-sook (female, 29)
        Cho, Sung-sook (26)
        Kwak, Myung-neo (male, 35)
        Yoon, Seo-young (female, 24)
        Chun, Chang-sup (male, 42)
        Hwang, Tae-Wook (male, 9)
        Oh, Song-Wol (4-year-old child)
        Lee, Dae-ho (7-month-old baby)
   seized on october 31, 2002 at the german school in beijing, china
        Joo, Seung-hee (female, 41, Hamkyung Bukdo)
        Han, Mee Kyung (female, 17, daughter of Joo Seung-hee)
        Lee, Sun-hee (female, 39, Hamkyung Bukdo)
        Kim, Ok-byul (female, 14, daughter of Lee Sun-hee)
        Kim, Kwang-soo (male, 16, son of Lee Sun-hee)
                  seized on october 30, 2002 in dalian
        Kim, Gun Nam (male)
seized on september 2, 2002 at the ecuadorian embassy in beijing, china
        Han, Song-hwa (female, 45)
        Cho, Seong-hee (female, 16, daughter of Han Song-hwa)
        Cho, Hyun-hee (female, 12, daughter of Han Song-hwa)
        Kim, Yeon-hee (female, 31)
        Cho, Il-hyun (female, 10 months, daughter of Kim Yeon-hee)
        Choi, Jin-hee (female, 28)
        Chung, Kwon (male, 28)
        Cho, Young-ho (male, 20)
       seized on august 31, 2002 in changchun in northeast china
        Kim, Hee-tae,* humanitarian worker, was seized along with eight 
        North Korean refugees, who were attempting to leave China. 
        Sentenced to 7 years imprisonment.
          seized on august 31, 2002 near the mongolian border
        Yun Kim Shil (female)
  seized on august 26, 2002 at the chinese foreign ministry in beijing
        These seven refugees attempted to apply for asylum at the 
        Chinese Foreign Ministry.
        Kim, Jae-gon (male, 60)
        Kim, Jong-nam (male, 36)
        Kim, Mi-young (female, 37)
        Jo Song-hye (female, 27)
        An, Choi-su (male, 40)
        Ko, Dae-chang (male, 56)
        Kim, Hong (female, 29)
   seized between may 24-26, 2002, in yunnan province near the laos/
                          burman/china borders
        Six North Korean defectors of which three names are known to 
        us:
        Lee, Song-yong (boy, 3) (note his mother, Park Sun, hi (female, 
        31), defected successfully to South Korea in 2000)
        Lee, Hong-gang (male, 48)
        Kim, Mi-hwa (female, 30)
       seized on may 10, 2002 while attempting to reach thailand
        Kim, Chul Soo (male, 63)
        Kim's wife (female, 60)
        Kim's daughter (female, 30)
        Choi, Soon Kum (female, 59)
        Kim, Myung-Wol (female, 45)
        Pack, Nam Gil (male, 18)
        Park, Myung-Chul (male, 45)
        Han, Young-Ae (female, 45)
        Han's husband (male, 47)
        Eun, Shim (female, 10)
        Eun Shim's brother (male, 14)
                    seized on may 9, 2002 in yanbian
        Rev. John Daniel Choi,* American citizen who had set up an 
        orphanage to care for North Korean refugee children. Fourteen 
        refugees he was helping were seized on the same day Choi was 
        taken by Chinese authorities.
                seized on april 12, 2002 in yenji, china
        Rev. Choi, Bong-il* (54), humanitarian worker, sentenced to 9 
        years imprisonment
        Shin Chul (24) (refugee being helped by Rev. Choi)
        Choi, Sung-gil (23) (refugee being helped by Rev. Choi)
      seized between december 29-30, 2001 near the mongolia border
        Seized near the border town of Dongchi in northeastern Inner 
        Mongolia trying to cross the China/Mongolia border on December 
        29/early December 30, 2001. These refugees were seized when 
        Pastor Chun Ki Won was arrested. Pastor Chun served 9 months in 
        a Chinese prison for trying to help these refugees. Two 
        refugees in this group who had U.S. relatives were allowed to 
        go to Seoul. After their arrest, these refugees were held at 
        Manchu-Ri Prison in China:
        Roh, Myung-ok (female, 38, wife of a SK citizen, Chung, Jae-
        song)
        Chung (Jung), Yoon (Eun)-mee (female, 10, daughter of No Myung-
        ok)
        Chung (Jung), Yoon(Eun)-chul (male, 8, son of No Myung-ok)
        Kim, Kwang-il (male, 32)
        Kim, Chul-nam (male, son of Kim Kwang-il)
        Kim, Ji-sung (male)
        Nam, Choon-mee (female, wife of Kim Ji-sung)
seized on september 16, 2000 at their ``safe-house'' with their son in 
                        dalian by chinese police
        Han, Won-chae (male, 60)
        Shin, Keum-hyun (female, 58)
        Their son, Han, Sin-hyuk, successfully defected to South Korea.
  seized on january 17, 2000 by north korean security agents in china
        Rev. Kim, Dong-sik* (Rev. Kim is a citizen of South Korea but 
        also has a green card from the USA); he is believed to have 
        been abducted to North Korea
 seized on august 6, 1997 by chinese police in jian, liaoning province
        Li, Song-Nam (51)
    seized on february 4, 1997 at the shanghai international airport
        Kim, Eun-Chol (male, 35); His parents (Jae-Won Kim and his wife 
        live in South Korea and it is believed he was sent back to 
        North Korea)

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
